<html>
<title> - A COOPERATIVE STRATEGY FOR 21ST CENTURY SEAPOWER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-105]
 
            A COOPERATIVE STRATEGY FOR 21ST CENTURY SEAPOWER

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           DECEMBER 13, 2007


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                  U.S. GOVERNMENT PRINTING OFFICE
44-078                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member
                    Caterina Dutto, Staff Assistant

















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, December 13, 2007, A Cooperative Strategy for 21st 
  Century Seapower...............................................     1

Appendix:

Thursday, December 13, 2007......................................    43
                              ----------                              

                      THURSDAY, DECEMBER 13, 2007
            A COOPERATIVE STRATEGY FOR 21ST CENTURY SEAPOWER
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Allen, Adm. Thad W., USCG, Commandant of the Coast Guard, U.S. 
  Coast Guard....................................................     8
Conway, Gen. James T., USMC, Commandant of the Marine Corps, U.S. 
  Marine Corps...................................................     6
Roughead, Adm. Gary, USN, Chief of Naval Operations, U.S. Navy...     5

                                APPENDIX

Prepared Statements:

    Allen, Adm. Thad W...........................................    68
    Conway, Gen. James T.........................................    58
    Roughead, Adm. Gary..........................................    47

Documents Submitted for the Record:

    A Cooperative Strategy for 21st Century Seapower.............    77

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions asked during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Drake...................................................    97
    Mr. Forbes...................................................    95
    Ms. Shea-Porter..............................................    95

.            A COOPERATIVE STRATEGY FOR 21ST CENTURY SEAPOWER


                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, December 13, 2007.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, the hearing will come 
to order. Members will come in shortly. After the vote 
yesterday, I am sure that they would think that a hearing today 
is--well, it is great to have our panel here.
    December 13, 1775, anniversary today, the Continental 
Congress authorized the first 13 frigates. And Duncan Hunter 
says we have to build them soon. This is the 100th anniversary 
of the Great White Fleet. ``a good Navy is not a provocation to 
war, it is the surest guarantee of peace,'' President Theodore 
Roosevelt, December 2, 1902, in his second annual message to 
Congress. And we congratulate the Navy on its celebration of 
the Great White Fleet. And as I have told my Navy friends many 
times, my father served on the USS Missouri, which was part of 
that Great White Fleet. He served on it in 1918, and it was 
decommissioned the following year. That was when my father said 
that that is when they made men of steel and ships of wood. But 
I am sure there was a little facetiousness there.
    Well, thank you for being with us. It is a special treat. 
Actually, we are making history today. Appearing before us, 
Admiral Gary Roughead, the Chief of Naval Operations; General 
James Conway, Commandant of the Marine Corps; Admiral Thad 
Allen, Commandant of the United States Coast Guard. This is 
historic because this is the first time the holders of these 
three respective positions have ever testified together. And we 
are thrilled that you are here to discuss this.
    We are fortunate to count Elijah Cummings, a member of this 
committee, who chairs the Subcommittee on Coast Guard and 
Maritime Transportation of the Transportation Committee, which 
has oversight of the Coast Guard. And hopefully, Admiral Allen, 
you will feel as comfortable here as you do before that 
subcommittee.
    We are here today actually at the request of the service 
chiefs. You have asked for the opportunity to present to 
Congress a published doctrine entitled ``A Cooperative Strategy 
for 21st Century Seapower,'' and it should be in front of you 
in booklet form. And we welcome this opportunity to discuss 
strategic concepts. I think that strategic thought gets lost in 
the minutiae of building systems, trying to keep families and 
personnel at their highest level of capability. But it is 
important that we have a strategic thinking for our country, 
particularly in seapower. The seas don't get any smaller. Our 
Navy, sadly, gets smaller. And that, of course, is one of the 
challenges before us.
    I will ask that my statement, so artfully drafted by an 
excellent member of the staff--who as of 15 minutes ago is a 
new grandfather, Will Ebbs, who sits next to me, and if he 
flees the room it is understandable. Congratulations to you.
    So with that, and without delving further into the need for 
strategic thinking or the military education that goes into it, 
and hopefully we will be able to touch on that. It was an area 
that I was blessed to study as a panel chair of this committee 
a good number of years ago. So we may touch on that as well. 
Duncan Hunter.
    [The information referred to can be found in the Appendix 
on page 77.]

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thanks for calling 
this hearing. And gentlemen, good morning. And especially I 
would like to join in Ike's welcome to Admiral Allen, and also 
give a special welcome to Admiral Roughead, who appears before 
this committee for the first time as Chief of Naval Operations. 
Congratulations, Admiral, and best wishes to you in this 
assignment.
    I understand that the strategy was developed in a 
nonresource-constrained environment. And it is not intended to 
replace the Navy's 30-year-old shipbuilding plan, or 30-year 
shipbuilding plan or budget planning documents, and for that I 
applaud you.
    For some time I have been concerned that the strategy of 
the Department of Defense is driven by the Office of Management 
and Budget. As you have heard me say in the past, I believe the 
greatest failing of the most recent Quadrennial Defense Review 
was the artificial constraint placed upon it by budget caps. I 
understand that the availability of resources must shape our 
programs, but in order to make educated decisions we have to 
start with a baseline understanding of the global security 
environment and what capabilities we need to protect the 
national security interests of the United States, with minimal 
risk. Only after determining requirements can we begin to make 
trade-offs based upon resource constraints in such a way that 
we understand where we are accepting risk.
    And that is why this committee initiated the Armed Services 
Committee Defense Review in parallel with the QDR, to establish 
a framework for the members to consider the recommendations of 
the QDR. The irony is that with all the personnel available to 
the Department of Defense, the work that this committee did by 
taking a different, nonresource-constrained approach, turns out 
to have been more representative of what the services now say 
that they need.
    And incidentally, I would turn your attention to the 
personnel end-strength recommendations that came out of the 
Committee Defense Review as compared with the old QDR.
    So I look forward to hearing more from you today about how 
you intend to translate this strategy into service-specific 
requirements which will form the basis of your request for 
resources.
    However, with that said, the Navy, Marine Corps, and Coast 
Guard don't have a good track record with regard to managing 
the resources that you have been provided. You are not alone, 
but that does not excuse the situation we find ourselves in. On 
one hand, we have a critical need for modernization, and DOD's 
planned investment in new systems that has doubled in the last 
6 years from around 750 billion to nearly 1.5 trillion. On the 
other hand, there has been cost escalation on nearly 
everything, from aircraft to ground vehicles to submarines and 
shipbuilding.
    The GAO has found many times over that acquisition programs 
are too often started with immature technologies, and without 
stable designs. Every time one of these programs experiences a 
Nunn-McCurdy breach, the cost of a ship more than doubles, the 
support for additional resources and modernization wanes.
    Now Admiral Roughead, when you and I had an opportunity to 
meet the other day we discussed this. The Littoral Combat Ship 
(LCS) was supposed to be a small, fast craft that we could 
build in large numbers to operate in the littorals. Instead, 
they are over 400 feet, the size of World War II-era 
destroyers, operate at 45 knots, and cost nearly half a billion 
dollars apiece. Today we have only been able to partially build 
two. And I fear that the Navy's talk of transformation is 
nothing more than a speech senior leaders give at the Rotary 
Club.
    And after coming off that podium and talking about having a 
Navy that is going to have fast ships with a low manning level, 
multi-mission capability and all the other things, we tend to 
stride off that podium and the reporter says, ``Well, what are 
you building this year?'' and you tell them, ``We got a carrier 
going, and a couple of submarines, and maybe an LCS.''
    But the talk about transformation has essentially been 
that. It has been talk. You have had the opportunity to embrace 
transformation and you have chosen not to. And I want to point 
to the Sea Fighter, the X-Craft that was built up in Mr. 
Larsen's district. Here was a ship built by the United States 
Navy, by the Office of Naval Research, which is the fastest 
ship in the history of the world, goes 60 miles an hour, does 
it with a crew of 26, can handle and does handle in fact a UAV, 
helicopter capability, special operations capability, and has 
the ability, if you a use those modules in the right 
configuration, you can put over 500 medium-range cruise 
missiles on that ship. That gives you multiples in terms of 
capital investment versus firepower, manning versus cost, 
operations and maintenance versus cost, huge multiples over the 
current state of affairs with America's warfighting ships. And 
yet the Navy has spent more time trying to kill the Sea Fighter 
than, in my estimation, do anything else with respect to 
platforms.
    So gentlemen, with all due respect, I am pleased that you 
have cooperated to develop the strategy that you are going to 
talk to us about today. I am supportive of its tenets.
    But you are not going to be able to deliver if you can't 
afford the force that will make the strategy a reality. What 
are you planning to do to get control on requirements and to 
enable the acquisition community to more effectively manage 
their programs?
    Last, I look forward to hearing more about a few specific 
elements in the strategy. First, the strategy states, today the 
United States and its partners find themselves competing for 
global influence in an era where they are unlikely to be fully 
at war or fully at peace.
    General Conway, I am surprised that the Marine Corps would 
agree with such a characterization. Isn't the Marine Corps now 
fully at war? Are we being naive to think that we are in an era 
without the possibility of full war? And if so, how does this 
affect your need for resources in terms of end strength and 
weapons systems?
    Second, the strategy advocates a concentration of forward-
deployed forces in the Western Pacific and Arabian Gulf, Indian 
Ocean. At what expense? Where will we take risk if we pursue 
such a strategy? Also, is this consistent with the 
recommendation contained in the strategy to establish a 
persistent global presence of U.S. forces? How will you 
accomplish both?
    And finally, I would be interested in learning how the 
growing influence of China, with the expanding Chinese 
shipbuilding capacity and the increasing capability and numbers 
of Chinese submarines and air power, shape the new maritime 
strategy. How is this strategy different as a result of these 
factors?
    And gentlemen, let me just tell you one thing that I am 
very concerned about is that China has an increasing domestic 
shipbuilding capability, commercial shipbuilding capability. If 
that shipbuilding capability, which is presently focused on 
commercial construction, is translated or turned into warship 
construction, the Chinese Government has the ability to quickly 
outstrip the construction of American ships and the fielding of 
a large Navy. So I would like you to talk about that a little 
bit, whether or not you are looking at America's shipbuilding 
plan against the backdrop of a China which is quickly stepping 
into the superpower shoes that have been left by the Soviet 
Union, and which understands that the naval dimension of that 
new superpower status is extremely important to their economic 
well-being and also their ability to enforce their foreign 
policy, which at times may be contrary to America's foreign 
policy. So if you could address that, that is a very important 
point I think for us to look at as we come together on this 
policy.
    With that, thank you, Mr. Chairman, for having this 
hearing. Very important hearing. Gentlemen, thank you for being 
with us today.
    The Chairman. Before I ask our distinguished witnesses for 
their testimony, let me take this opportunity to again thank 
the members of this fantastic committee for the work that you 
all have done for the bill that passed yesterday 
overwhelmingly. And we, of course, all know that we could not 
have done it but for such an outstanding staff that we have to 
work with. And I just want to add my personal gratitude to 
every member and every staff member, because it was yeoman's 
work. We finally got there. Now it is in the bosom of the 
Senate. And we hope they will pass it momentarily, and, among 
other things, pay raises can go to the sailors and the troops.
    Mr. Hunter, thank you very much. We will testify in this 
order: Admiral Roughead, General Conway, and Admiral Allen. So 
without further ado, I thank you very much for this. This is an 
all-important hearing to think strategically regarding our 
seapower. Admiral.

     STATEMENT OF ADM. GARY ROUGHEAD, USN, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Roughead. Thank you very much, Chairman Skelton, 
Mr. Hunter, distinguished members of the committee. On behalf 
of our 600,0000 sailors, Navy civilians and families, I am 
pleased to be here with General Conway and Admiral Allen to 
present the Cooperative Strategy for 21st Century Seapower. 
That all three maritime service chiefs are here together and 
are signatories to the strategy is a testament of our Nation's 
maritime forces to an integrated approach in protecting our 
Nation's vital interests.
    We are a maritime Nation. Our founders recognized it, our 
history has Shown it, and this committee, with its leadership 
and interest, continues to reinforce it. Our last maritime 
strategy, albeit a Navy-only strategy, was issued in the early 
1980's. It contributed to the end of the Cold War. And because 
it was a Cold War strategy, its efficacy ended there.
    We have been too long without strategic guidance for our 
maritime forces. I am pleased to have been part of this 
maritime strategy development. It is a strategy that charts the 
right course for our maritime services at this point in time.
    I am of the fleet. My experiences of the past 5 years as 
Commander of U.S. Second Fleet/NATO Striking Fleet Atlantic, as 
a Maritime Homeland Defense Commander supporting U.S. Northern 
Command (NORTHCOM), as Commander of Joint Task Force 519 in the 
Pacific, as the Commander of the Pacific Fleet, and as the 
Commander of United States Fleet Forces Command, these 
experiences have given me a perspective of our worldwide 
operations that convinces me of the relevance of this maritime 
strategy.
    As recently as the year that preceded its release, I led 
robust operations in the Western Pacific, ranging in the full 
spectrum of seapower from multi-carrier operations in the 
Western Pacific to proactive humanitarian assistance operations 
with our hospital ships Mercy, Comfort, and Pelileu. While at 
opposite ends of the operational spectrum, these uses of U.S. 
seapower demonstrated the need to codify our strategy and build 
for a new future.
    At the same time, my experiences working with our partners 
and allies around the world made it clear to me that 
international partnerships and cooperation will underpin global 
and, therefore, American prosperity.
    Watching the successful Malaysian and Singapore and 
Indonesian operation, enhanced maritime security and maritime 
domain awareness in a vital strategic strait was incredibly 
important. And also seeing our activities under the 
Proliferation Security Initiative to dissuade the transfer of 
weapons of mass destruction shows that these cooperative 
opportunities and similar activities will be important to our 
future.
    But my experiences and those of my colleagues were only 
part of what informed our new strategy. Through our 
conversations with the country, I heard firsthand the demand of 
the American people to remain strong and to also cooperate 
internationally to secure our national interests. This 
solidified my conviction that the Navy needed a new strategy 
that would address the changing and increasingly integrated 
global environment while securing our prosperity through the 
seas and protecting our homeland.
    At the International Seapower Symposium in Newport, Rhode 
Island, the three of us unveiled this maritime strategy that 
uniquely met those demands. Before record attendance of 98 
nations, 67 Chiefs of Navy, and 27 Chiefs of Coast Guard, the 
symposium was the ideal venue to communicate our new vision and 
demonstrate our commitment to international cooperation. It was 
extremely well received. And while the maritime strategy 
reaffirms our unbending commitment to forward presence, to 
deterrence, to sea control and power projection, it is unique 
for three reasons:
    First, all three maritime services participated in the 
development and are signatories.
    Second, we take the bold step of committing to a higher 
level of cooperation with maritime forces around the world, a 
commitment that we as seagoing forces are uniquely able to 
meet.
    And third, while we remain the preeminent warfighting force 
this maritime Nation expects, we also intend to pursue 
proactive humanitarian assistance and disaster relief and 
maritime security operations.
    My guidance to the fleet is to execute our strategy. And my 
priorities--to build our future Navy, to maintain our current 
readiness, and support our people--reflect what is needed to do 
so.
    The imperative and challenge for the Navy is to remain a 
balanced Navy, with the force structure and capability and 
capacity that can apply the enduring principles of seapower in 
a manner that protects our vital national interests, while 
promoting greater collective security, stability, trust, and 
prosperity.
    I look forward to working with you to ensure that our 
maritime services remain preeminent. And on behalf of our 
sailors and Navy civilians, I thank you for your continued 
support and your commitment to our Navy. And I would like to 
submit a copy of my written statement and a copy of the 
maritime strategy for the record. Thank you.
    The Chairman. Without objection, they will be received.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 47.]
    The Chairman. General Conway.

  STATEMENT OF GEN. JAMES T. CONWAY, USMC, COMMANDANT OF THE 
                MARINE CORPS, U.S. MARINE CORPS

    General Conway. Thank you, Chairman Skelton, Congressman 
Hunter, distinguished members of the committee. I have pledged 
to always provide you with forthright and honest assessments, 
and I bear that in mind as I report to you today on the future 
of the Marine Corps. Your Marine Corps is fully engaged in what 
we believe is a generational struggle against fanatical 
extremists. This long war is multifaceted, and will not be won 
in one battle in one country or by one method. Your Marines are 
a tough breed, and will do what it takes to win, not only in 
these opening battles of Iraq and Afghanistan, but also in 
subsequent conflicts which we endeavor to prepare for today.
    Congressionally mandated to be the most ready when the 
Nation is least ready, your multicapable Corps is committed to 
fulfilling this responsibility.
    Some say that today the Marine Corps is closer to the Army 
than it has been since World War One. Our new maritime strategy 
reaffirms our Naval character, and reemphasizes enduring 
relationships with the Navy, and now the Coast Guard.
    Current operations limit our ability to aggressively commit 
forces to strategy implementation at this time. However, as we 
increase our end strength to 202,000 Marines, and as security 
conditions continue to improve in Iraq, the Marine Corps will 
transition our forces to other battles in the long war. 
Ultimately, we will realize a new era of expeditionary 
operations called for by this strategy.
    The most complex mission in the maritime strategy is the 
congressionally mandated mission of amphibious forcible entry. 
Such an operation requires a high level of proficiency, and 
long-term resourcing, and is not a capability that we can 
create on short notice. The sea-basing concept allows us to 
maximize forward presence and engagement, while stepping 
lightly on host nation responsibilities. In that matter, we 
avoid disruptions that can result from a larger U.S. presence 
ashore.
    A classic example was our recent operation, alongside our 
brothers in the Navy, in Bangladesh. Importantly, sea-basing is 
not exclusive to the Navy and the Marine Corps. It will be a 
national, joint capability. Combat tested in the Middle East, 
with historical roots in the Pacific, the Marine Corps seeks to 
further enhance its operational capabilities in the Pacific 
theater.
    That said, some areas like Africa offer unique 
opportunities for the operational flexibility afforded by sea-
basing and the extended reach of aircraft like the MV-22 and 
the KC-130J. The future bodes well for dispersed units of 
Marines with their interagency partners to enhance our 
relationships on that very large continent.
    As America's Naval forces implement this new maritime 
strategy, several factors warrant consideration:
    First, based on defense reviews over the last several 
years, we have already accepted risk in our Nation's forcible 
entry capacity. We have reduced amphibious lift from three to 
two brigade-sized assault echelons. On the low end of the 
spectrum, Marines embarked aboard amphibious ships must also 
meet Phase 0 demands. The ability to transition between those 
two strategic goalposts, and to respond to every mission in 
between, will rely on a strong Navy and Marine Corps team and 
the amphibious ships that cement our bond. The Navy and Marine 
Corps have worked together to determine the minimum number of 
amphibs necessary to satisfy the Nation's needs, and further 
look forward to working with this committee to support the 
chief of naval operation's (CNO's) shipbuilding plans.
    Second, key to our ability to implement this new strategy 
is the flexibility and combat power of Marine aviation. Our 
priority has been to replace legacy aircraft, some of which 
have been flying since Vietnam. Today and tomorrow, vastly more 
capable aircraft, such as the Joint Strike Fighter, will ensure 
that the Corps maintains its warfighting advantage for our 
Nation in the years to come.
    Third, and perhaps most importantly, everything we read 
about the future indicates that well-trained, well-led human 
beings with the capacity to absorb information and rapidly 
react to their environment have a tremendous asymmetric 
advantage over an adversary. Ladies and gentlemen, that 
advantage goes to us. Our young Marines are courageous, willing 
to make sacrifices, and, as evidenced by our progress in al-
Anbar, capable of operating in complex environments. Quiet in 
their duty, yet determined in their approach, they are telling 
us loud and clear that wherever there is a job to be done they 
will shoulder that mission with enthusiasm. Your continued 
support remains a vital and appreciated foundation to their 
service.
    Thank you for your magnificent support thus far, and thank 
you for the opportunity to report to you today on behalf of 
your Marines. I look forward to answering the committee's 
questions, sir.
    The Chairman. General, thank you.
    [The prepared statement of General Conway can be found in 
the Appendix on page 58.]
    The Chairman. Admiral Allen, please.

STATEMENT OF ADM. THAD W. ALLEN, USCG, COMMANDANT OF THE COAST 
                    GUARD, U.S. COAST GUARD

    Admiral Allen. Good morning, Mr. Chairman, Mr. Hunter, 
distinguished members of the committee. I am very pleased to be 
here today with my fellow sea service chiefs to discuss the 
Cooperative Strategy for 21st Century Seapower.
    I would like to begin by recognizing the leadership of 
Admiral Roughead and General Conway in spearheading an 
integrated strategy for our Nation's sea services. This 
approach reflects maritime challenges faced by our Nation and 
offers a consensus on the way forward. While the strategy is 
new, it takes on greater meaning, having been jointly developed 
by all three sea services for the first time in history. It 
continues to reflect enduring relationships built on more than 
two centuries of working together.
    The cooperative strategy reflects our times. It is a 
convergence of leadership, ideas, and capabilities. It is also 
a platform we can use to talk about how to best move this 
Nation forward with confidence into a very uncertain future in 
an era of persistent and often irregular conflict, where the 
next challenge may be wholly new and unanticipated. It is a 
global strategy that reflects the absolute necessity to 
integrate, synchronize and act with coalition and international 
partners, not only to win wars, but as Admiral Roughead has 
said, to prevent them.
    Your Coast Guard is not a large organization, but we are 
broad in reach. As we meet here this morning, we have Coast 
Guard patrol boats working with our Navy, Marine, and coalition 
partners in the northern Arabian Gulf, maintaining the security 
of the Iraqi oil platforms, sharing best practices with 
emerging regional navies and coast guards, as we have done in 
Yemen.
    We are also working in the eastern Pacific and Caribbean, 
with aerial surveillance and surface patrols, extending our 
reach in removing drugs from the transit zone before reaching 
shore. I am proud to say we reached a milestone in Coast Guard 
history this past year, having removed more cocaine at sea than 
any year in our history. That is maritime strategy in action.
    Closer to home, we are saving lives of mariners in 
distress, securing critical infrastructure, inspecting 
commercial ships, and protecting the environment. We are at all 
times maritime, military, and a multi-mission service. With our 
partners, we bring critical capabilities to bear on this 
strategy and its future.
    The Coast Guard is a unique instrument of national 
security. Unlike the other services and other Federal agencies, 
we are simultaneously an armed force of the United States and a 
Federal law enforcement agency. This dual character allows us 
to operate in many venues, domestically and abroad. In 
international engagement, we necessarily move beyond 
traditional relationships with maritime-related ministries and 
military relationships with defense ministries. Over two 
centuries we have become agile in building multiple 
relationships with our foreign partners.
    The Coast Guard's role is also unique because of the 
capabilities and the history we have of operating in the 
world's polar regions. The Cutter HEALY, one of the Coast 
Guard's three icebreakers, returned this fall from a science 
mission off the North Slope of Alaska to determine the extent 
of the United States Continental Shelf, an appropriately timed 
deployment given the changing Arctic environment and associated 
challenges. The Coast Guard is the Nation's most visible 
presence in isolated waters, and we must continue to be able to 
extend our reach, our competencies, our capabilities and our 
capacities in high-latitude regions.
    Equally important to the execution of the strategy is our 
expeditionary force capability that can quickly build and 
deploy force packages for environmental protection, disaster 
relief, security cooperation and other missions. We are 
prepared to tailor and deploy operational teams immediately for 
full spectrum operations. We are integrated with our sea 
service partners. And given the composition of our fleet, are 
able to work very closely with emerging, less developed nations 
and coalition partners.
    Mr. Chairman, my promise to the committee today, my promise 
to Admiral Roughead and General Conway, is that we will work 
tirelessly in implementation and execution of this strategy, 
not only because it is the best thing for the Coast Guard, or 
the best thing for our sea service--which it is--but because it 
is the best thing for maritime security of the United States, 
as well as peace and stability around the world.
    I thank you. I would be glad to take your questions and 
submit a full statement for the record.
    The Chairman. Admiral, thank you very much.
    [The prepared statement of Admiral Allen can be found in 
the Appendix on page 68.]
    The Chairman. Again it is a pleasure to have all three of 
you before us today. In listening to you and your strategic 
outline, I have had the privilege of serving here in the House 
for a good number of years, and it just seems like yesterday 
when President Ronald Reagan was urging a 600-ship Navy. And if 
we count every one today, it is a 280-ship Navy. And I think 
you will find this committee understands the challenges.
    It also understands that there is a quality with quantity 
as well. And we, of course, want your best advice regarding 
that.
    I have one quick question before I ask Mr. Hunter to lead 
off with a question. You are talking about strategy, which is 
strategic thought. Strategic thought is taught and discussed at 
our war colleges. And I remember back in 1988, when it was only 
a secondary thought in some services to receive an intermediate 
and senior-level War College degree. Since that time, much has 
changed. The Naval War College at that time was the best, but 
you didn't have to go there. It was good if it fit into the 
career.
    The Marine Corps, thanks to General Al Gray, did a complete 
180-degree turnaround, which today makes us very, very proud of 
the Marine Corps, not just in its graduate staff level, but now 
with its War College. I don't know how many Coast Guardsmen go 
to either intermediate- or senior-level schools, but I think it 
behooves that to take place.
    So let me ask one question, and I will just do it of you, 
Admiral Roughead, if I may. Are you getting the strategic 
thinkers, uniformed strategic thinkers from the various War 
Colleges, whether they are other service schools, your service 
school, or the national Industrial College of the Armed Forces 
(ICAF) or the Joint Forces Staff Colleges? Are you getting 
those strategic thinkers that you need today?
    Admiral Roughead. We are, Mr. Chairman. And I would like to 
say that our Naval War College was instrumental in the 
development of this strategy. And as you know, it is not the 
brick and mortar that contributes, it is the intellectual 
effort of the young men and women who are at the college, who 
have gone through the college, who populate our strategic 
planning staffs. So we are getting the numbers that we need.
    I believe the unveiling of the strategy in Newport that 
drew 98 countries to that institution, of which the Navy is 
extraordinarily proud, is indicative of the stature of our War 
College and the emphasis that we are putting on it. I see the 
young men and women out and about in the fleet adding thought, 
adding their ideas. And I am satisfied with the product that we 
are getting out of there.
    The Chairman. I could ask the same question of the other 
two gentlemen, but in the spirit of moving along, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Again, gentlemen, 
thanks for being with us.
    Admiral Roughead, in putting together this plan, did you 
folks look at where you think China will be with respect to 
maritime power, where it is today, and where you think it will 
be in 10 years?
    Admiral Roughead. Mr. Hunter, we looked at changes in 
navies around the world and what the maritime forces around the 
world--how they were evolving, the technologies that were 
coming into play, their growth.
    Mr. Hunter. Specifically did you look at China? Probably 
the Bangladesh Navy may not be of too much importance from our 
perspective.
    Admiral Roughead. We looked at China, yes, sir.
    Mr. Hunter. Have you made any changes that you think are 
substantive changes as a result of looking at China's emerging 
maritime capability?
    Admiral Roughead. I believe a point that you highlighted in 
your opening statement was the concentration and focus of our 
Navy and our strategy in the Western Pacific and in the Indian 
Ocean region. And that concentration that we have called out 
for is a function of the growth in navies in those parts of the 
world, China in particular.
    Mr. Hunter. That is an operational change, but have you 
done anything with respect to the construct or the makeup of 
the U.S. Navy, which as the Chairman has mentioned, is at an 
all time low in terms of numbers and the ability to cover 
important areas? But have you looked in your shipbuilding 
program for the near future and for the long run? Have you made 
any analysis with respect to whether we are going to need more 
submarines, more missile platforms, the makeup of the U.S. 
Navy? Have you looked at that?
    Admiral Roughead. Mr. Chairman, we are always looking at 
what the appropriate force mix and balance should be based on 
evolving Naval trends around the world.
    Mr. Hunter. Okay. Here is my question then. You said that 
you have looked at the evolving trends of China and you have 
looked at the emergence of China with its new maritime power. 
Is that accurate?
    Admiral Roughead. Yes, sir.
    Mr. Hunter. Okay. Have you made any changes in the long-
range plans for construction of American vessels, whether 
undersurface or surface vessels, as a result of looking at 
China's evolution of their own maritime capability? Is there 
any manifestation of changes that we made as a result of 
looking at that?
    Admiral Roughead. Yes, sir, I believe if you look at the 
capabilities that we are putting in.
    Dr. Snyder. Mr. Hunter, could we get the Admiral to pull 
the microphone a little bit? He is speaking off to one side.
    Mr. Hunter. Yeah, get that mike a little bit closer.
    Admiral Roughead. All right, sir. We look at the 
capabilities that navies have that are evolving, and China 
being one of them. And that has driven our advancements in 
certain capabilities, whether it be in antisubmarine warfare, 
ballistic missile defense, the command-and-control capabilities 
that we need on our ships as we operate globally as a global 
Navy, the strategy outlines, the overarching principles that we 
see. And then----
    Mr. Hunter. But in terms, Admiral--I don't want to cut you 
off, but those are all aspects of Naval warfare--in terms of 
increasing or changing the mix in the construction programs 
that will produce the Navy of the future, have you made any 
changes there in terms of do we need more submarines? Do we 
need more missile platforms? Do we need more aerial platforms? 
Have you made any changes there as a result of the evolution of 
Chinese maritime strength?
    Admiral Roughead. Yes, sir. Our force structure is 
examined. And as we build our budgets we look at what the 
current situations are around the world and we make adjustments 
to that. For example, the Littoral Combat Ship was--even though 
it has tremendous application in littorals, it is also capable 
of running and providing enhanced anti-submarine warfare (ASW) 
capability to our more traditional battle formations, our 
expeditionary strike groups and carrier strike groups. So LCS 
is a function of the need that we see for anti-submarine 
warfare, mine warfare, and anti-surface warfare capability in 
areas where we see the threat evolving.
    Mr. Hunter. Okay. So you are saying that the LCS to some 
degree has been derived from an analysis of where we think 
China is going?
    Admiral Roughead. We have derived LCS capabilities and 
numbers from what we see with naval developments around the 
world, to include China, to include the evolution of systems 
that are proliferating around the world and can be used by 
others. So that is what drives our calculus for our force 
structure.
    Mr. Hunter. Okay. Thank you, Mr. Chairman.
    Mr. Hunter. Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman. And thank you all for 
being here.
    I wanted to ask a question that may seem unrelated to the 
topic of ships and how many and platforms and all. I know this 
is the summary document; we have got the full document, but 
this is more colorful, ``A Cooperative Strategy for 21st 
Century Seapower,'' and you have the three of your logos on it. 
But your document is very clear that it is cooperation you are 
asking for not just within the three of your organizations, but 
beyond.
    And the question I wanted to ask you is this. Secretary 
Gates a couple of weeks ago gave his speech on soft power that 
I am sure you have read some of the press reports about. He 
gave it at Kansas State, and I quoted from it here a couple 
days ago when he testified, in which he called for--you know, 
here is the Secretary of Defense calling for dramatic increases 
in funding for the United States Agency for International 
Development (USAID) and the State Department and the kinds of 
functions that they have. And I thought we had a pretty good 
discussion that day. And he did a very good job in discussing 
that.
    Ironically, or perhaps coincidentally, as we are coming 
here today to do your hearing in which you talk about a 
cooperative strategy, you talk about the importance of training 
your junior people on cultural sensitivity and language skills, 
and that you are not just a bunch of boats floating in the 
water off the shore, that you have interaction with all the 
places in the maritime community that you go to, and it is the 
relationships that you build that allow for your effectiveness 
in humanitarian relief and the kinds of things that can flare 
up.
    But what I want to ask you about, as you put on your broad 
hat and looking at the full nature of our national security, 
today's paper, in striking contrast with what Secretary Gates 
was talking about three weeks ago, has a Karen DeYoung story in 
The Washington Post: Diplomatic posts at the State Department 
and U.S. Embassies worldwide will be cut by 10 percent next 
year because of heavy staffing demands in Iraq and Afghanistan, 
Director General Harry Thomas informed the Foreign Service 
yesterday.
    Now, if I stopped there, we could blame the State 
Department; but we can't blame the State Department, we need to 
blame ourselves, the Congress for this.
    Reading on: The decision to eliminate the positions 
reflects the reality that State does not have enough people to 
fill them. Nearly one-quarter of all diplomatic posts are 
vacant after hundreds of Foreign Service officers were sent to 
embassies in Baghdad and Kabul, and Congress has not provided 
funding for new hires. Many of the unfilled jobs will no longer 
be listed as vacancies.
    And that is just part of that story. I would like the three 
of you to comment, as you put on your broad strategic hat, how 
shortsighted are we as a Congress being if we are going to 
allow this kind of cutback to occur in what many of us think is 
an already understaffed, underfunded Diplomatic Corps and State 
Department?
    Start with you, General Conway. I would just like to hear 
the three of you comment on that.
    General Conway. Yes, sir. Sir, I wouldn't blame the 
Congress as much as I would simply agree with what Secretary 
Gates has said. My observations on the ground in Iraq and in 
visiting Afghanistan is that the interagency is powerful. It 
has got to be a partner in Phase 0, Phase 1 operations, and 
then in Phase 4 and Phase 5. And it has simply not been 
resourced or manned over time in order to allow it to do that.
    So I don't know that the blame goes to any one place. I 
think there needs to be a better case made in some instances 
that there is an expeditionary culture or an ability to put 
people forward where they are needed that I think you would 
resource if convinced. But there is no question in my mind 
about the absolute need now and in this long war.
    Admiral Roughead. If I could just add on to that, there is 
no question that when we come together with our partners in 
State Department, and some of the missions that I talked about, 
humanitarian assistance--for example, we are operating one of 
our amphibious ships off the west coast of Africa--that when we 
work together we can achieve some significant results, bring 
increased cooperation into our operations. And it is a very 
powerful force.
    Admiral Allen. Sir, the Coast Guard lives in both of these 
worlds, and so does our Department of Homeland Security. I 
would say the challenge goes beyond State Department, and it 
has to do with deployable capabilities that can construct civil 
societies and do the things that are not kinetic related to the 
mission that you are trying to accomplish. The problem is these 
departments and agencies don't have people in garrison on a 
deployment cycle ready to deploy. And that capacity and 
capability is just not presently there, sir.
    Dr. Snyder. I think that was one of the concerns that 
Secretary Gates has. I talked to Mr. Armitage about it, and he 
thinks that the Congress, we need to build in a 10 percent--
throw out a number--redundancy in the State Department, because 
when we pull people from places like Afghanistan and Iraq, then 
when you all want to go off the coast of West Africa, the 
people aren't there because they have been pulled--the State 
Department people and the other civilian agencies aren't there 
because they have been pulled to do other jobs. Thank you, Mr. 
Chairman.
    The Chairman. Dr. Gingrey, please.
    Dr. Gingrey. Mr. Chairman, thank you.
    The Chairman. Excuse me, Doctor, just one moment. I just 
learned we not only have one vote, but we have, it appears, 
four votes. And I will apologize to our distinguished 
witnesses, but we will do our best to make your short recess as 
short as possible. But it is necessary for us to make the 
votes. But we shall return, and we beg your indulgence, and we 
hope we have you for a great part of the day.
    Doctor.
    Dr. Gingrey. Mr. Chairman, thank you.
    General Conway, Chief, Admiral Roughead, Admiral Allen, we 
thank all three of you for being here and for your service. I 
am going to address my question to our new CNO, Admiral 
Roughead. In regard to of course pursuing this national 
military strategy and the national strategy for maritime 
security, the joint pamphlet between the Navy, Marine Corps and 
Coast Guard, a large focus, and I think rightly so, is on 
securing the United States from direct attack.
    And here is the question. What are the major seaborne 
threats and what ability do the terrorists have to attack us 
from the ocean? And I will address it first to Admiral 
Roughead.
    Admiral Roughead. Sir, the major seaborne threats, as I see 
them, would be brought in largely through commercial 
activities, because we do have the buffers of the oceans, a 
great benefit that we enjoy. But it is also possible that as we 
look to the future, and the strategy tries to take us out 
decades, and we have seen proliferation of advanced weapons 
systems around the world, whether they are submarines or 
missiles, that in time one could see those types of threats 
evolving. But in the near term, it really does deal with that 
which can be brought in through normal means. And that is why 
maritime security, maritime awareness, and our partnership with 
the Coast Guard on being able to be aware of that which is 
moving on and near our coastlines, that which is coming from 
across the ocean, and then to be able to work in this 
cooperative way with the Coast Guard is key to our homeland 
security and homeland defense.
    Dr. Gingrey. Well--and Admiral Allen may want to touch on 
this as well, because I think, obviously, back on the attack on 
the USS Cole, and the fact that so much of our equipment, our 
maritime equipment and, of course, our great seamen and Marines 
on that equipment are pulled into these ports all around the 
world in some really tough neighborhoods. And it worries me.
    So Admiral Allen, if you will comment on that as well, I 
would appreciate it.
    Admiral Allen. Yes, sir, I think our goal should be to 
create transparency on what is arguably the last global common. 
And we have made great strides since the attacks of 9/11 to do 
that; first of all, for mandatory carriage requirements for 
transponders for all vessels greater than 300 gross tons that 
we negotiated at the International Maritime Organization. And 
we will be transitioning to long-range tracking. And that will 
give us a view of what is legitimately operating out there. And 
while it won't tell you who has got the machine turned off, you 
can then sort and understand who is legitimate and who may not 
be.
    Beyond that, I think the next challenge we have to deal 
with is vessels less than 300 gross tons that are not regulated 
internationally. And these would be vessels capable of carrying 
a weapon of mass destruction or an improvised explosive device 
(IED). I am talking about down in the range of commercial 
fishing vessels, recreational boats and work boats. And that is 
a challenge that we are taking on in the Coast Guard, sir.
    Dr. Gingrey. One other question before my time expires, and 
our Chairman addressed this, Admiral Roughead, at the outset, 
his first question with regard to are we strategically getting 
the manpower, the brainpower that we need from the Naval War 
College. And then I was sitting here thinking, now, do our 
Marines, General Conway, do they go to the Naval War College or 
do they primarily attend the Marine War College? I am not even 
sure where that is located, if it is located, so you can 
educate me on that? My point is is there some jointness in 
regard to cross-training with our members of the Coast Guard, 
the Navy and the Marines in regard to that educational 
experience?
    General Conway. The answer is absolutely, sir. All of our 
War Colleges, both at the senior level and at the intermediate 
level are purposefully joint because there is some real 
learning that takes place in the seminars that you cannot have 
in the larger classrooms. I would offer to you, sir, that I 
think it is critically important that there be a good balance 
there, though, with our young officers. They need to have the 
operational experiences, they need to understand other 
cultures, they need to have seen the world a little bit before 
they move to the academic aspect of things, and then continue 
to increase their knowledge base. Simply to be an analyst 
without benefit of portfolio I think is not the person we are 
looking for.
    Dr. Gingrey. Mr. Chairman, thank you. My time has expired, 
and I will yield back, and I think we will probably be going to 
vote soon.
    The Chairman. Let me add this, Doctor. Let me tell you why 
I am so proud of the Marine Corps. Back in 1988, when we did 
our investigation of all the War Colleges, the command level 
staff college of the Marine Corps did not get a good grade. 
That was turned around 180 degrees. In addition thereto, they 
established their very own senior War College, not a large one, 
but a quality one. And I am just so proud of the fact that they 
took professional military education so seriously. And as a 
result, we have class--you know, you pick the service, class 
intermediate and senior War Colleges today. But the Marine 
Corps came a long way. And I really have to give credit to 
General Al Gray for initiating that.
    We do have these votes. We apologize. We will be back as 
quickly as possible. Thank you.
    [Recess.]
    The Chairman. Our hearing will come back to order. Members 
will be returning from the vote, but we should proceed.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I will just jump in 
quickly.
    Thank you all for coming today and for helping us 
understand the cooperative strategy for 21st century seapower.
    The question is really focused right now for Admiral Allen. 
If you can talk a little bit about some of the issues that are 
a little closer to home for me, but as they relate to the 
strategy.
    The first thing I want to ask is with regard to the Arctic, 
how this particular cooperative strategy aligns with the needed 
polar policy end capabilities. If you could speak to that 
generally; then I want to get into specifics after that.
    Admiral Allen. I would be happy to.
    This year, we had the largest amount of receding ice in the 
Arctic history, and the implications for traffic over the top 
of Russia or potentially through the Northwest Passage raise 
the spectrum of the need to have presence up there for any 
range of missions that any of our services may have to 
accomplish.
    For that reason, we have initiated a requirements 
development process to take a look at how we would execute our 
missions that support the strategy, including search and rescue 
operations, environmental response, critical infrastructure 
protection and so forth. But I think we really need a reasoned 
discussion on the requirements and what it means to operate at 
high latitudes.
    There is a work group that was established under the 
National Security Council to look at the current Arctic policy 
that was issued under a Presidential directive in 1994. All of 
this is converging.
    In the meantime, our commander up there is looking at 
proofs of concept for both aviation and surface operations, 
navigation issues, communications issues and so forth.
    Mr. Larsen. Could you then talk a little bit about your 
Deepwater acquisition program specifically? I am on the 
Transportation and Infrastructure Committee. We have had a lot 
of discussions about it on that committee.
    Can you talk about how the Deepwater acquisition assets 
would fit into the cooperative strategy, as it relates to the 
Arctic? Could you talk specifically about any specific assets 
that would be supportive of the strategy?
    Admiral Allen. I would be happy to do that, particularly as 
to the capabilities of the National Security Cutter.
    We just finished machinery trials last week. We are very 
pleased with the progress there. With that contract, all 
current issues have been resolved. We are commencing 
construction on number three. We think this thing is being 
stabilized in the way that the committee was looking for.
    Coast Guard cutters, by their nature, have to be 
interoperable with the Navy because, under statute, we can be 
transferred to the Navy in times of war, but we also do a lot 
of law enforcement work. We do a lot of work with Coalition 
international partners on search and rescue and oil spill 
response. Because of that, we are kind of a linking pin. We can 
go down to low-tech and no-tech partners.
    As far as executing the strategy of deploying a Coast Guard 
cutter in concert with Navy assets out there in global fleet 
station concepts, we have become a force multiplier at the 
lower end in dealing with Coalition partners, and it makes a 
perfect match.
    Mr. Larsen. Can you talk a little bit about the Coast 
Guard's polar icebreaking fleet and if it is meeting its 
current mission performance requirements? If not, what will it 
take to meet its performance requirements?
    Admiral Allen. We currently have three icebreakers in the 
U.S. inventory: the Polar Sea, the Polar Star, which are heavy-
duty icebreakers, and the Heely, which is an icebreaking 
research vessel.
    As it stands right now, we need to make some decisions on 
the long-term future of the Polar Sea and the Polar Star 
because they are approaching the end of their service life. 
That needs to follow a very deliberate requirements development 
process, which I addressed earlier.
    But, quite frankly, those ships are going to have to be 
addressed in the next 5 to 10 years. One is laid up in 
commission special status. One is operating right now, but it 
certainly is something we are going to have to get our arms 
around in the future.
    Mr. Larsen. We will need to further explore that.
    For the three of you, is there a test case country where 
you all--the Coast Guard, Marine Corps and the Navy--are 
working together with that country, where we can sort of put 
our minds around these cooperative strategies, or a country 
right now where the three of you are cooperating and are trying 
to develop an integrated approach with that particular country? 
Can you help us understand?
    Admiral Roughead. I think not so much a particular country, 
Mr. Larsen, but, rather, the regions where we operate. For 
example, we have the USS Fort McHenry, one of our amphibious 
ships, that is operating off of the West Coast of Africa, and 
it is a cooperative effort with us, with the Coast Guard, with 
the other armed services, and with the host nations themselves.
    It is this ability to come into an area, do training, work 
on maritime security, schemes and thinking with those 
countries. So it is more of a regional approach, and we get a 
lot of benefit from that.
    Admiral Allen. Yes. We have law enforcement attachments and 
trainers that are deployed out of Fort McHenry. We just 
finished a deployment with the Navy in the Caribbean with 
Comfort, a hospital ship that deployed down there. There were 
Coast Guard hospital corpsmen on board, as well.
    Mr. Larsen. General Conway.
    General Conway. I can only think of one instance, and it is 
probably off the Philippines, working with the Philippines 
Special Operations Forces, where we embarked aboard Navy ships 
and were putting forces ashore on an infrequent basis.
    Mr. Larsen. Yes. Okay. Thank you.
    Maybe I will follow up later, Mr. Chairman. Thank you.
    The Chairman. I thank the gentleman.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you very much, Mr. Chairman.
    I thank our panel for being here today and for the fine 
work they do.
    Admiral Allen, we have been hearing some rumors that there 
might be a proposal to transfer the Coast Guard's safety 
authorities and capabilities to some new entity or to a 
different Federal agency.
    Have you given any thought or can you comment on how you 
think that would impact your ability to execute the cooperative 
strategy?
    Admiral Allen. Yes, sir. There has been some discussion 
about whether or not the Marine's safety mission might be 
located someplace else. It is our position that it belongs 
inside the Coast Guard and that safety and security are 
intimately intertwined.
    A good example of the most robust international engagement 
that the Coast Guard can do on behalf of the strategy is our 
engagement with the International Maritime Organization, which 
is the international maritime safety regulatory body.
    In fact, two weeks ago, I led the U.S. mission to the 25th 
Assembly there. This is where we negotiated the agreements on 
long-range tracking and things that give better transparency to 
the global commons. In my view, it is impossible to separate 
safety and security within the Coast Guard's mission section, 
and it should be retained there.
    Mr. LoBiondo. So that would, in your view, definitely 
impact your ability in the cooperative strategy?
    Admiral Allen. It would, sir. Yes, sir.
    Mr. LoBiondo. Also, Admiral Allen, how do the Coast Guard's 
specific capabilities complement the cooperative strategy? It 
is a broad term, and it is big concept, but I am trying to 
connect the dots on some basics, on some specifics.
    Admiral Allen. Yes, sir. I noted in my opening statement 
that, when we go into a country on a visit, we deal with a lot 
of ministries other than the Ministry of Defense by virtue of 
the portfolio of the missions that we have. It could be the 
interior ministry, public safety or, in the case of China, the 
communications ministry. This allows us a broader reach in 
doing shaping and international engagement that could preclude 
conflicts in the future.
    Right now, we have three advisors deployed to South Korea 
to assist in oil spill response, and that would be a good 
example.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    The Chairman. The gentlelady from California, Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for being here. Thank you so much 
for your service.
    I was going to follow up, actually, General Conway, with 
the Chairman's question, because I wanted to have you have a 
chance to express your concern also about the educational 
opportunities that our mid-level servicemembers are having.
    As one thing just to throw out there, and perhaps you can 
follow up, I am just wondering to what extent we are really 
tracking to see whether we have an increasing number of 
servicemembers taking advantage of classes, whether they are 
getting the time, on ship or dwell time, to enable them to take 
advantage of those classes.
    Is there any way of really seeing whether there has been a 
drop, when there is an increase, how we determine that, and how 
we are able to effect that into making sure that our young 
people are really getting the kind of educational opportunities 
that they need, especially when they are serving on ship or in 
country?
    General Conway. Ma'am, I would talk, first of all, to the 
professional education aspect of this and say that, although 
with our operating tempo (OPTEMPO) there have been pressures to 
offset the requirement for promotion and selection to command 
and those types of things, we have not done so. We have tried 
to make it easier for our Marines, both officers and enlisted, 
with online courses and seminar courses and that manner of 
thing. But before every promotion board, every selection board, 
there is the requirement that that Marine be, quote, 
``professional military education (PME) complete'' before he or 
she receives serious consideration.
    So we consider it the strategic thinking that we are going 
to have to have, the strong operational thinking we are going 
to have to have on down range. And it is just not one of those 
standards that we are willing to forego in spite of, again, the 
very significant tempo that we are experiencing right now.
    Admiral Roughead. If I could add to that, ma'am, our 
process is very similar. The path to promotion is through 
professional education, professional military education. We 
have, in our major fleet concentration, areas and opportunities 
for our officers to take advantage of that.
    Although, I would say that, while that is very important 
and it allows us to increase the numbers that are in that 
program, there is much to be said for going to the institution 
itself, to the war college. Because it is when you immerse in 
that environment and when you are there and in seminars and 
your total focus is on joint military education and on 
professional military education and you do not have the daily 
churn and demands of your job, it is a much richer experience. 
You get better cross-pollenization. Therefore, we cannot take 
our eye off of that either.
    Mrs. Davis of California. I agree. I think it is critically 
important. And my concern would be whether or not we are seeing 
some diminution of that, partly because we have so many people 
who are deployed for longer periods of time. And I would just 
hope that we would be watching that and seeing whether there is 
a point at which we need to be concerned about it.
    The other issue, and I think it has been mentioned, is in 
terms of language and to be able to track and to see, you know, 
again, the extent to which regional expertise and language 
expertise is being developed and people are taking advantage of 
that.
    We should be, really, having a surge of that kind of 
interest, I think, and applicability. And I would think, during 
this time, perhaps that is not the case.
    Admiral Roughead. Well, our policy, particularly for our 
officer accession programs, is that they must take some 
regional courses or language courses. That has been worked into 
our institutions.
    For our enlisted force, we, as our groups deploy, provide 
regional expertise information to them. In the last few years, 
the step up in our attention on that has been significant.
    Mrs. Davis of California. If I could turn for a moment just 
to the humanitarian assistance, because that has obviously been 
a very important part of the work that you all do and over 
which you have, I think, a great deal to offer.
    Are we ensuring that we have the right mix of personnel to 
conduct these operations in the future while supporting our 
other core capabilities? How are we doing that in terms of our 
health-care needs and whether or not, in fact, we are training 
the physicians who are going to be available for those kinds of 
missions in the future? Is that a concern?
    Admiral Roughead. The way that we have done the 
humanitarian missions--and my experience has been that I was 
intimately involved in the tsunami relief and in the deployment 
of our hospital ships in the proactive way that our strategy 
calls for.
    We go through a vetting process as we put the teams 
together. One, what are the types of skills that we think we 
will need in that particular area? Then we go through a very 
formal vetting to make sure that we are not depleting those 
skills in our medical treatment facilities that are important 
to our sailors and to our families.
    Then, of course, we reach out to other services, to the 
host nation and to nongovernmental organizations, which 
minimizes the demand that is placed on us.
    General Conway. Ma'am, I do have a mild concern, and that 
is just with the number of Marine expeditionary units, or now 
the expeditionary support groups, that we are able to put out 
at any one time. We have what we call a ``1-0 presence.'' there 
is one at all times in the Central Command region, but we are 
not covering Europe like we used to. We are not covering the 
Pacific completely.
    We have had some very good fortune with ships and with 
people being in the right place with some of the catastrophes 
that we have had, but we can only hope that we continue to be 
lucky, because we are not covering the planet like we used to.
    Mrs. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Admiral Roughead, at a Seapower Subcommittee hearing in 
October, our subcommittee raised several questions relative to 
the adequacy of the 60 Sierra to perform adequately a number of 
missions. I would like, with your permission, sir, to submit 
some questions for the record relative to these helicopters and 
to your future planning.
    In your maritime strategy, you mentioned climate change as 
a factor in changing the global security environment. There is 
another factor which, if the environmental changes loom large, 
these changes will be huge, and that is changes that will occur 
because of an increasing scarcity of the amount of oil that the 
world would like to use.
    We have had four Government studies--two of them in 2005, 
two of them just this year--that were paid for by your 
Government, that were ignored by your Government, that were all 
saying essentially the same thing, that the peaking of oil--
that is, the world's ability to produce oil--is maxing out. The 
peaking of oil is either present or imminent, with potentially 
devastating consequences.
    There are two major entities which track oil around the 
world and which do prognostications. I would pay little 
attention to their prognostications, but they do a very good 
job of documenting what has happened. This is the International 
Energy Administration and the Energy Information Agency in our 
country. Both of them have been tracking the production of 
crude oil around the world. If you look at their graphs, both 
of them show that the world has reached a maximum and is down a 
bit from that maximum that it reached in the production of 
crude oil. This reality, of course, is reflected in the fact 
that crude oil is now more than $90 a barrel.
    China, as you know, is going around the world, buying up 
all of the oil it can at the same time that it is aggressively 
building a blue-water navy. With 1.3 billion people, the time 
may come when China will not be able to share the oil which it 
owns with the rest of the world. That will produce some 
enormous challenges and dislocations in the world, and I wonder 
why this very real potential for future challenge was not 
included in your maritime strategy.
    Admiral Roughead. Well, I would say, Mr. Bartlett, that the 
strategy calls out for where we must be and the types of 
capabilities that we must have. As we translate those 
requirements into what we buy, I believe that is where we look 
at what is the proper source of propulsion, the proper source 
of power generation.
    And it is in that process that we then take a look at, 
given the future that we see, what are the decisions that we 
must make to have the robust, capable fleet and fleet in 
numbers for the future.
    Mr. Bartlett. Of all of the institutions in our country, 
our military is more effectively addressing the energy 
challenge than any other. I appreciate that.
    As a whole, of course, our country is doing a tiny fraction 
of what it needs to be doing in this area, but you mentioned 
climate change, you know, the melting of the polar ice so that 
we now have access to resources there and maybe sea routes 
through there and the flooding of low-lying areas, which 
require the need for more humanitarian aid. So you are looking 
to the future and in how you would structure our maritime 
forces to meet these challenges.
    Don't you think that the increasing scarcity of crude oil 
in the world will potentially create even bigger challenges and 
a bigger need to look at our strategy for the future than 
global warming? Global warming is probably not going to produce 
any big effects for maybe a half a century.
    I will tell you, sir, I do not think we will make it 
through a decade without some major international dislocations 
as a result of competition for energy. I am not sure how this 
would impact what your planning for the future is, but I think, 
certainly, it needs to be a factor in that planning.
    Admiral Roughead. Yes, sir. And I believe that, in our 
strategy, we clearly call out for the effects of the 
competition for resources. And that played no small part in 
where we have focused our attention and have called for a focus 
of attention, which is in the Arabian Gulf, in the Indian Ocean 
region and in the Western Pacific, where energy will become a 
driver of what takes place.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Taylor, please.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our very, very distinguished guests for 
being with us and for serving the Nation.
    Commandant Allen, I am going to start with you. I want to 
first thank you for letting me visit the Baltimore shipyard 
last weekend. It gave me a much better appreciation for the 
challenges of the 110's, 123s. It also, quite frankly, left me 
more angry than I went there, knowing that eight very capable 
vessels were turned over to the yard that built them in order 
to modify them. That yard was given a performance spec. And I 
am told by the very capable Coast Guard captain who walked us 
through the yard that, almost immediately after those boats 
were delivered, even before they saw any sort of a sea state, 
that the engines started being out of alignment because the 
hulls started deflecting almost as soon as they engaged the 
clutches on the engines.
    I would remind the commandant that other Government 
agencies--and, as you know, we have been through Hurricane 
Katrina--starting with the Corps of Engineers, have the right 
to tell contractors who are not living up to their expectations 
on one contract that we are not even going to consider you for 
the next until you fix the first one. And the Corps, I know, 
did that with a number of debris haulers. I would like to know 
if you have the legal authority to do that under present law.
    I would also like to put you and the contractor in question 
on notice that, on the next Coast Guard authorization bill, if 
this is not resolved to your satisfaction and to the taxpayers' 
satisfaction above all, it is my intention to have those eight 
vessels heretofore known as the ``Bollinger class.'' I think 
our contractors deserve a big pat on the back when they give us 
a good vessel, but when they design something and they build it 
and they modify it and they screw it up and they do not assume 
responsibility for that, then, again, we are going to help them 
assume responsibility for that. So I hope this message is 
delivered to your contracting folks.
    I am curious. On the contracting, do you have the authority 
right now to say, ``Look, until you straighten this out, you 
are never getting another contract''?
    Admiral Allen. Yes, sir. Under our current contract award 
procedures, we are able to include past performance, and we do. 
And that does bear in the decision-making process, moving 
forward. We appreciate your continued support, and this is a 
difficult situation.
    Just to advise you on where we are, we have revoked the 
acceptance of those boats. We have made that notification to 
the contractor. They have provided us information back in 
rebuttal. We are getting very close to what we would call a 
contracting officer's determination on our final position on 
it. Then that will take us to our next step, whether it is in 
the courts or whatever.
    We will keep you advised, sir. We thank you for your 
interest.
    Mr. Taylor. Again, these are assets of the people of the 
United States of America. And if someone--again, if he built 
it, if he modified it, if there were a performance spec and if 
it did not work, as far as I am concerned, Bollinger Shipyard 
is responsible, and they need to fix it. Either that or give 
their money back to the Nation.
    Admiral Roughead, I hope you are aware that this year's 
Defense Authorization Bill calls for the next generation of 
nuclear cruiser. The next generation of cruiser is to be 
nuclear-powered.
    You were kind enough to give me a book on Admiral Nimitz 
and how his efforts in Hawaii led to a series of events leading 
to other books about the war in the Pacific, the most recent 
about Howse's typhoon.
    Do you know what initiated the series of events that caused 
Admiral Howse's fleet to sail into that typhoon, the series of 
historical events that led to the sinking of the three 
destroyers and of also the 900 sailors?
    Admiral Roughead. It dealt with the need to fuel those 
ships----
    Mr. Taylor. That is correct.
    Admiral Roughead [continuing]. And the decisions that were 
made to ballast or not ballast. I believe that is what you are 
getting at, Mr. Taylor.
    Mr. Taylor. That is exactly what I am getting at, Admiral.
    Again, you know, for all of the reasons we outlined earlier 
in the year, as far as I am concerned, that was the icing on 
the cake. Any potential peer or foe is going to recognize our 
Nation's, as the great Congressman from Maryland pointed out, 
vulnerability when our fuel supply is cut off.
    For that reason--and remember, they had to get far enough 
away from the Philippines where they could not be attacked by 
land-based aircraft while they were refueling. If another 
scenario like that in the Pacific were to take place, I know 
that you do not want to see our carriers vulnerable while the 
ships that are protecting the carriers are refueling.
    So I would encourage you--the Senate has passed this, and 
the House has passed this. I fully anticipate the President 
will sign it. We have got about seven years to put the plans 
together for these vessels.
    Quite frankly, it is going to be the one part of the ship 
where we have a pretty good idea of how much it is going to 
cost. Everything else is up in the air. So let's go ahead and 
let's get this going and let's get those ships in the fleet.
    General Conway, again, thank you for working with us on the 
expeditionary fighting vehicle. I do appreciate the Marine 
Corps's willingness to look at options to make the vehicle more 
mine-resistant. I think it is fair to say that the ranking 
member and I are not yet sold on your solution, but we do want 
to continue to work with you, and we do appreciate your looking 
at other options to make it more mine-resistant.
    We appreciate all three of you in your service to our 
Nation.
    The Chairman. Mr. Taylor triggered my thought, Admiral 
Roughead, of which I will subject you to again, that we in 
Congress do our homework. Sometimes we are able to look at the 
problems you have that extend beyond today or tomorrow vis-a-
vis the work that we did over four years, which, as you full 
well know, we call Goldwater-Nichols.
    When Mr. Taylor makes reference to fuel problems, to oil 
refueling problems, we take this very seriously. And it is our 
baby, because we are the ones who are constitutionally charged 
with raising and maintaining the military. And we intend to 
work with you.
    Then we hope that you will understand the depth with which 
we pass the measure regarding our future cruisers. I know I 
speak for Mr. Taylor and for Mr. Bartlett. Their subcommittee 
will work very, very closely with you on this.
    I use as an example Goldwater-Nichols, which is now part of 
your culture, which, as I told you recently, every member of 
the Joint Chiefs of Staff was adamant against, but at the end 
of the day, to you all's credit, you made it work. And it has 
done a good thing for our Nation and for, hopefully, the other 
work that we do, including, the issue of which Mr. Taylor spoke 
would befall that category.
    Do you have a comment on that, sir?
    Admiral Roughead. I do, Mr. Chairman. I am a great 
proponent of the work that you did and how it has transformed 
our military. We talk about things that are transformational--
it is not always equipment--and I think that that is a case in 
point.
    I have spoken with Mr. Taylor about this, and we know that, 
as we go through our analysis on our designs and force 
structure, that the cost of building a nuclear cruiser is going 
to be significantly higher than it would not be, as far as 
acquisition cost.
    The concern I have is how will we then resource the rest of 
the shipbuilding program that we need when we have a 
significant cost up front, perhaps to be regained as we go 
through the life cycle of the ship. But I am concerned about 
what the initial ship costs will be and what that will do to 
fleet size because of the rate of procurement that we can have.
    The Chairman. Admiral, you are looking at the people who 
are going to solve that for you.
    Admiral Roughead. All right, sir. Thank you very much.
    The Chairman. Thank you.
    Mr. Jones, please.
    Mr. Jones. Mr. Chairman, thank you.
    General Conway, this is a personal issue, that I want to 
publicly thank you,on behalf of Congressman Gene Taylor and 
myself, for what you did to help the Jerome Lee family in 
Mississippi. I think that the services of the Marine Corps, the 
Navy, the Coast Guard, the Army and of the Air Force are 
special, and too many times we forget that our fighting men and 
women have a big heart. So I just want to say thank you, sir.
    General, I do have a question regarding the 33 amphibious 
ships of which you have been ordered to satisfy the issue 
addressed in the maritime strategic document. I ask this 
question because we have you and General Roughead here. How is 
this program going? Is it working together well to fulfill 
these requirements of these 33 amphibious ships?
    General Conway. Sir, I will take the first part of it and 
say that I am very comfortable that the Navy and the Marine 
Corps have worked together closely to identify what the 
requirement is to put two brigades in assault across another 
enemy shore, the forceable entry capability that we must have 
as a Nation.
    We have gone to Quantico. We have worked together on a 
computer load-out, which is what we would use to put those two 
brigades aboard ship. The number, actually, comes to 34 ships 
in the total requirement, 17 ships for each brigade. But in 
deference to the CNO shipbuilding plan, my predecessor said we 
can live with 30. We can do some things on black bottoms that 
will augment.
    So I have maintained that line of reasoning and have said, 
if the requirement is 30 ships, if you apply 85 percent of 
availability against that, then we need probably 33 ships in 
order to have that capacity ready on short notice.
    I have had those conversations with the previous CNO. 
Admiral Roughead and I have had those conversations, and I 
think we are in general agreement on the requirement. At this 
point, I think the determination is, do we extend old ships for 
a longer life cycle or do we build new ships to get to that 
number? But we are confident that the CNO understands and the 
Navy understand the requirement.
    Admiral Roughead. If I could, Mr. Jones, the way that I 
look at things--and I do not believe that there is a lot of 
daylight between General Conway and myself--is that there are 
requirements and then there is what we can afford. While I 
agree on the requirement, I also have the obligation to you to 
be able to produce a shipbuilding plan that is fiscally 
possible.
    So, as we go through our process in the coming years, the 
requirement is there, and we will work very closely together to 
realize the capability for our country and for our Navy and 
Marine Corps that gives us the capability that is important and 
that is called out in the maritime strategy.
    Mr. Jones. Admiral, I appreciate that. And that is why I am 
pleased that the Chairman is Gene Taylor and that the ranking 
member is Roscoe Bartlett, because I know that these two men 
will do what is necessary to make sure that our Marine Corps 
and our Navy have exactly what they need to defend this country 
and the interests of this country.
    I have one last question. I think I have a little bit of 
time.
    General Conway, considering the Marine Corps's end-strength 
will increase by 9,000, what is the state of the Marine Corps?
    You might have had this question earlier. I was at Walter 
Reed, visiting the troops, and I missed votes, and I missed 
being here. If you had that question, I apologize. But if you 
did not, Camp Lejeune is in my district, and it is a growing 
base, and we are happy about that, but can you speak to the 
question I asked?
    General Conway. First of all, sir, I would say we are going 
to go by a total of 27,000 over the next 5 years. And if you 
look at those metrics that help our leadership to define the 
health of the Corps, they are all pretty good. I mean, we are 
working hard, and the first tempo for operational forces is 
seven months deployed and seven months home. We consider our 
families to be the most brutal part of that whole equation 
because Marines are essentially doing what Marines joined our 
Corps to do.
    Re-enlistment rates are increasing, really, every year 
compared to what they were the year before. We recruited not 
5,000 in this first year, which was our goal, but actually 
7,000 young Americans to be Marines, without reducing our 
standards in the slightest.
    Our equipment is getting worn-out, admittedly, but that 
said, this committee and others have helped us with reset 
costs, and we have the expectation that that will continue to 
be the case as we posture for the long war and for whatever 
might follow in years to come.
    So, all in all, I feel pretty good about where we are right 
now, sir, to be honest with you.
    Mr. Jones. Thank you, General.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman from North Carolina.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I want to thank the panel for being with us here today.
    Admiral Roughead, I want to just follow up on your comments 
about the fiscal challenge that you face. In looking at your 
testimony, it states that the 313-ship force represents the 
maximum acceptable risk in meeting the security demands of the 
21st century.
    Given the fact that today we are at 280, it sort of begs 
the question about whether or not we are at a point of 
unacceptable risk. And I just wonder if you could maybe fill in 
that blank.
    Admiral Roughead. I would not call it unacceptable risk, 
but I do believe that we have moderate risk in our ability to 
conduct the range of missions that we have around the world 
and, as I found out firsthand when I was in the Pacific, that I 
could have used more ships of differing types to be able to 
conduct operations that span the spectrum that our Navy is 
expected to perform.
    Getting to 313 ships is a priority. I believe that is what 
we need as a Navy, as a minimum. In my four years that I have 
ahead of me, I am going to be working to achieve that 
objective.
    Mr. Courtney. Again, you have a lot of friends in this 
room, but having just sort of gone through this process as a 
new Member just this year--and again, Mr. Taylor, Mr. Bartlett, 
Mr. Skelton and Mr. Hunter obviously moved heaven and earth to 
try and get both the defense bill out of this committee and the 
budget bill to a higher level--it seems to me that, as to what 
is projected in terms of the $14 billion a year over the next 
few years, it almost has to work perfectly to get to that 
number, because there just cannot be any cost overruns, given 
the strains that that is under.
    Admiral Roughead. Well, I believe there are many things 
that have to come into play: making sure that, particularly in 
my area of responsibility, we accurately define the 
requirements; that those requirements are what we need, not 
just want; that we then have in place some accurate costing 
processes to determine what the cost is; that we then have the 
oversight on the programs, as we build those programs, to 
ensure that we are staying within those cost controls; and 
also, that we have an ongoing process to ensure that, as 
classes are being built, that we do not see what I call a 
requirements creep, which is often the case.
    I have seen it time and time again, and we have to have the 
discipline to say, no, we are not going there because it will 
cost us out of business.
    Mr. Courtney. Okay. Again, it just seems that the 
trajectory of what you have to reach or of what you are 
shooting to reach and what the budget is that is being 
projected is a pretty big challenge for you. Hopefully, as you 
go through that, that is something that you will be--I do not 
mean this in a negative way. I mean, hopefully, we are going to 
get a straight picture, you know, from the Pentagon about 
whether these pieces are really falling into place with the 
numbers that are being projected.
    Admiral Roughead. You will from me, sir.
    Mr. Courtney. Thank you.
    I have no further questions, Mr. Chairman.
    The Chairman. The gentleman from Pennsylvania, Mr. Sestak, 
please.
    Mr. Sestak. Thank you for your time.
    Admiral, I guess Mr. Hunter had asked the question--I have 
come and gone, and I may have missed it--on the LCS. You just 
mentioned you were out on the Pacific.
    If you had to say what the major areas are of focus that 
you might do regarding China--and I do not mean that as an 
adversary, but Taiwan is like a dog with two tails, us and 
China. If Taiwan shakes, we just have an honest broker's role 
to play.
    What are your number-one and number-two areas of concern 
regarding the maritime capability we want to bring forward? Not 
concern--that would probably be your priority out there.
    Admiral Roughead. I would say that, for me--and I lump it 
into the context of what will it take to keep the sea lanes 
open. I have for a long time been someone who has focused on 
antisubmarine warfare because of the ability of just one 
submarine to cause enough uncertainty and confusion that it 
could shut down the flow of commerce, which would be absolutely 
critical, or the flow of our supplies should we be in conflict. 
So antisubmarine warfare is a very high priority for me.
    Mr. Sestak. I am sorry; I did not mean to interrupt. Was 
there one more? That is your number one?
    Admiral Roughead. That is where my number-one focus has 
been.
    Mr. Sestak. Before you go on to your next, your answer to 
Mr. Hunter mentioned the capabilities of ASW for the LCS and 
for the anti-surface warfare (ASUW). But this year, the Navy 
cancelled the Advanced Deployable System (ADS), the major ASW 
capability that we are supposed to have on the LCS. The 
modeling that has been attendant to how good the LCS would be 
in ASW in a scenario in the Western Pacific has relied almost 
exclusively, not totally--it has the Romeo, but the Romeo has 
to stay close on an ADS. So did we make the right decision to 
cancel ADS if that is your number-one priority out there?
    And, number two, is LCS to be a player in that scenario in 
ASW?
    Admiral Roughead. I----
    Mr. Sestak. Okay. I will follow up--I am sorry--at this 
time. I apologize. Go ahead.
    Admiral Roughead. No. I would say that, as I come into my 
job and as we look to the 2009 budget and 2010 budget, clearly, 
looking at our capabilities across a broad spectrum--ASW for 
one, air defense for another, ballistic missile defense--we 
really have to get away from looking at just the platforms and 
look at the systems that give us the capability.
    Mr. Sestak. That is not a platform. ADS was meant to be 
off-ship----
    Admiral Roughead. Right.
    Mr. Sestak [continuing]. Which seems to me where the Navy 
was headed for a while. It is not platform on platform. If the 
Chinese have more submarines than we do today, we just cannot 
build enough submarines to go one on one. So the concept, to my 
understanding, was to get these with off-board ASW capability, 
throw them out there, and they will kind of track them.
    So why did we cancel ADS if LCS is the priority?
    Admiral Roughead. Well, as you know, as we go through our 
budget process, there are priorities that drive cancellations 
or additions or sustainment. And my view is that, as we go into 
our Palm 10 process, we have to look at what capabilities we 
are going to buy. And I fully recognize that it is not a 
platform, but what we have to do is look at it holistically and 
see where we get the most bang for the buck. ASW is an area 
that I am going to be paying particular attention to.
    Mr. Sestak. Admiral and General, in your testimony, you 
have mentioned seabasing, but I didn't notice seabasing in 
yours, sir, or even in this. Has the Navy walked away from the 
concept of joint seabasing? I may have missed it, but that 
seemed to be, for a number of years, where the naval service 
was going, conceptually.
    Admiral Roughead. I have not walked away from seabasing. In 
fact, the discussions that we have discuss that.
    Mr. Sestak. Should it have been in here if it is still a 
part of the ethos of the Navy?
    Admiral Roughead. What we did is, as we were developing 
that strategy, we talked more about the capabilities that we 
wanted and that we believe are relevant to the future. Then as 
we go into our operating concepts and then into our strategic 
plan, that is where I believe we put the fine definition on the 
``seabase'' and the types of things that we have to acquire to 
be part of that seabasing.
    Mr. Sestak. I am out of time. Thank you.
    The Chairman. Before I recognize Mr. Cummings, let me 
interject.
    There was a certain class of Coast Guard cutters--I think 
they were called the 110's--that you tried to extend by 13 
feet, and it didn't work; am I correct?
    Admiral Allen. That is correct, sir.
    The Chairman. I don't think the Navy has ever had similar 
problems. From this country boy, whose only experience with a 
body of water is called the Missouri River, I am having a 
little difficult time as to why we didn't have the expertise to 
say, ``Hey, these things are going to buckle; something bad is 
going to happen,'' but no one did, which raises the thought 
with this Missouri River-bound country boy as to why we don't 
have, in some instances, common hulls with the United States 
Navy.
    Is there some problem with it? Do you all speak about these 
things and say, ``Hey, let us try this together''?
    Do you ever do that, Admiral?
    Admiral Allen. Yes, sir. In fact, those conversations got 
started a year and a half ago when I became the commandant 
within the CNO.
    Admiral Mullen--in fact, Admiral Roughead and I are 
scheduled to meet after the first of the year in these ongoing 
series of warfighter talks. And the topic for that meeting is 
the side-by-side comparison of LCS and the National Security 
Cutter (NSC), not just hull forms but systems and subsystems--
the deck gun, the radar and so forth.
    As I had told Admiral Mullen before I became the Chairman, 
I think you are going to see us up here more often together, 
answering these types of questions, because they are the right 
questions to be asked, sir.
    I will tell you this just in general, and then I will throw 
it to Admiral Roughead. The employment and the concept of 
operations for the LCS and for the NSC are different, and that 
does drive some of the hull considerations. LCS is looking for 
speed. They operate with oilers. We look for high endurance, 
for the ability to loiter.
    We operate independently, and that does take you different 
places on the hull design, but it is a perfectly legitimate 
question to ask. We need to be talking about it. We need to 
provide you answers based on our conversation, sir.
    The Chairman. It sounds like a major step in the right 
direction.
    Admiral.
    Admiral Roughead. Clearly, in the environment we are in, 
the need to be more cooperative and collaborative on systems 
and even on ship types is something that we have to continue to 
assess. That is the path that we are on. But as Admiral Allen 
pointed out, sometimes our mission requirements are different, 
and then that, in turn, drives the ship design. Wherever we can 
reach commonality, that is where we are going to go.
    The Chairman. That is great. I know you will keep the 
Subcommittee on Seapower fully advised on that----
    Admiral Roughead. Yes, sir.
    The Chairman [continuing]. At the beginning of the year.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to also thank you, Mr. Chairman, for raising the 
issue that you just raised. As Chairman of the Subcommittee on 
the Coast Guard under the Transportation Committee, I can tell 
you that Congressman Taylor also sits on that subcommittee, and 
we have urged the commandant of the Coast Guard to work closely 
with the Navy. We just think that it is a good combination and 
that it makes a lot of sense, as the Chairman was just saying.
    Let me just address a few questions to you, Admiral Allen. 
Does the Coast Guard's involvement in this strategy mean that 
any of the Coast Guard's missions will change in any 
significant way? Will your relationship with the Navy change? 
Or is the strategy more an articulation of the kinds of 
relationships and joint activities you already undertake with 
the Navy?
    Admiral Allen. Sir, you have summarized that absolutely 
correctly. What we are actually doing is institutionalizing and 
codifying relationships that have been built over 2 centuries. 
Quite frankly, even though we are building new classes of 
ships, the old ships are still operating and deploying. For 
instance, we had a medium-endurance cutter deployed to the Gulf 
of Guinea this last year.
    We are actually bringing this into our governance in an 
integrated synchronization structure that will actually allow 
us to be more effective with the resources we have, sir.
    Mr. Cummings. As you know, of course, the Subcommittee on 
the Coast Guard is very concerned about the need to ensure that 
the Coast Guard adequately balances its traditional missions, 
particularly Marine safety, with its significant new homeland 
security missions and with the missions it is undertaking in 
support of the Navy and of our U.S. operations around the 
world. While that will be required to implement the full range 
of missions and vision in the new cooperative agreement, the 
Coast Guard has to also work to fine-tune this balance.
    How will the services' participation in this new strategy 
affect the services' ability to carry out their traditional 
missions, such as ensuring the effective regulation of the 
commercial maritime industry?
    Admiral Allen. Yes, sir. It is a great question. In fact, 
it allows us an opportunity to integrate at a higher level, 
both at safety and security, in furthering the needs of that 
other nation and our services.
    Specifically, I think the greatest synergy that we bring to 
this strategy is our involvement with the International 
Maritime Organization (IMO), which is the international safety 
regulatory body. The fact that the Coast Guard leads the 
mission to the General Assembly is a way that we can deal with 
it.
    And I will give you a good example. We dealt with both a 
Marine safety and a security issue with the last General 
Assembly. One was a resolution on how to move forward with 
coastal states that are involved with piracy issues, mainly 
Somalia. The other issue we dealt with was ballast water 
management and the issue of invasive species.
    I don't think you are going to find an ability to bring 
those types of things together in an international forum to 
promote the aims of the strategy, which is to shape and to make 
sure that we can avert wars in the future by working 
internationally, sir.
    Mr. Cummings. One of the things I failed to say, Mr. 
Chairman, also, is that one of the proudest moments for the 
Coast Guard was during Hurricane Katrina, when they saved over 
30,000 people, 20,000 of whom would have perished if it were 
not for the Coast Guard. And I think that so often goes 
unnoted.
    Going back to the strategy document, it says, quote, ``To 
successfully implement this strategy, the sea services must 
collectively expand core capabilities of U.S. seapower to 
achieve a blend of peacetime engagement and major combat 
operational capabilities.''
    We have core capabilities specifically and, within the 
Coast Guard, the need to be expanded as part of the effort to 
ensure the effective implementation of the maritime strategy, 
particularly given that the Coast Guard has significant 
responsibilities for ensuring the maritime security of the 
United States, but it is obviously much, much smaller than any 
DOD services.
    Admiral Allen. Yes, sir. We are required by title 14, 
chapter 2, to be interoperable with the Navy should the 
President elect to transfer us to the Navy in times of major 
war. The last time that occurred was in World War II, when that 
indeed did happen.
    That drives the need for all of our core capabilities at 
some level to be interoperable with the Navy, should that 
happen. That also drives the discussion we just had earlier 
about would you look at the NSC and the LCS. Even if the hull 
forms are different, they have to be interoperable. We train at 
the same standards. We go through the same shake-down and 
refresher training that the Navy does, and that is how we 
accomplish the ability to integrate.
    So, as we grow core capabilities, there is no distinction 
or conflict between our core mission set and what we need to do 
to operate with the Navy, because it is legally mandated 
anyway, sir.
    Mr. Cummings. Thank you.
    With that, I yield back.
    The Chairman. Duncan Hunter has questions again.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Admiral Roughead, as the Chief of Naval Operations, I am 
sure that you know some of these facts. In terms of commercial 
shipbuilding, China is turning out 5,000 commercial ships a 
year versus 300 by the United States. They are turning out 
three submarines a year versus one by the United States. And 
undergirding that production is a production of 480 million 
tons of steel versus 99 million tons for the United States, a 
five-to-one advantage.
    All of that is giving them the industrial base that could 
allow the Chinese naval capability to outstrip the United 
States if they turn that commercial shipbuilding capability 
into a warship-building capability.
    Now, I have looked at your plan for construction, and I see 
no adjustments in the American plan for construction that 
reflects this change and this emergence of Communist China's 
naval power as a major security concern for the U.S.
    In my estimation, there is something else you should be 
doing. We are sending China $200 billion a year more than they 
are sending us. They are utilizing American trade dollars to 
arm, clearly, and they are complementing the homemade or 
country-made naval construction with acquisition from places 
like Russia, where they are purchasing the sovereign mini-class 
missile destroyers. You are aware of that.
    I think you should be weighing in with the Administration 
with respect to their trade policy, because that high cash flow 
that is going to China from American consumers each year 
pursuant to these unfair trade policies is being translated 
into military power.
    So my first question is, have you engaged with the 
Administration on the need to adjust our maritime construction 
strategy?
    And second, have you engaged with the Administration on the 
need to stop China's cheating on trade and this massive trade 
imbalance, which is being translated into security problems for 
your sailors and Marines?
    Admiral Roughead. Well, Mr. Hunter, as you know, our 
engagement on our shipbuilding policy is through the 
Administration and the programs that we put forth. But I have 
not engaged on trade policy with the Administration.
    Mr. Hunter. Well, that is a very small answer to a much 
bigger question. With respect to the increased production, in 
terms of them outstripping us by three to one on submarine 
production, and your own figures show that they are going to 
eclipse us in submarine numbers in 2011--maybe a little 
earlier, maybe a little later, depending which analysis you go 
with--clearly that should be a concern to you.
    Admiral Roughead. Well, it is.
    Mr. Hunter. Clearly, this massive commercial shipbuilding 
capability should be a concern to you.
    Admiral Roughead. I have had the opportunity to visit their 
yards that have built commercial and military ships, and they 
are state-of-the-art. They are very competitive on the world 
market. And there is no question that their shipbuilding 
capability is increasing rapidly, and I believe that not in the 
distant future it will likely surpass Korea as the prominent 
shipbuilder in the world today.
    Mr. Hunter. Does that give you any concern?
    Admiral Roughead. As someone who is involved in the 
maritime interests of this country, the fact that our 
shipbuilding capacity and industry is not as competitive as 
other builders around the world is cause for concern.
    Mr. Hunter. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Admiral Roughead, did we ever receive any 
official explanation from China, to your knowledge, as to why 
they refused the harboring of the Kitty Hawk and the two 
minesweepers, the two minesweepers that I understand were in 
weather distress? Did we ever receive any official explanation 
for that?
    Admiral Roughead. With respect to the information that I 
have received, it is categorized as a misunderstanding. And 
then we have moved forward and have moved beyond that and are 
continuing to work with the Chinese Government to continue the 
program of ship visitations that we have had.
    The Chairman. Okay. That was a great surprise to me because 
of the cordiality and openness that our delegation received in 
China in just this last August. I was very surprised.
    Admiral Roughead. The interest that I have in the military-
to-military relationship is to get to the heart of exactly what 
you are talking about, Mr. Chairman, to be able to better 
understand their process, their decisionmaking process, to 
better gauge the intent and where they plan on going with their 
navy and how they intend to employ that navy. And I believe 
that, through the military-to-military interaction that we 
have, we can gain insight into the intent of the People's 
Liberation Army (PLA) Navy and the People's Republic of China 
(PRC).
    The Chairman. You may recall--Admiral Ferguson is with us--
you may recall that we had an excellent briefing from their 
navy, as well as a visit aboard one of their ships. And I 
thought they were very, very open to our delegation at the 
time.
    Mr. Taylor has additional questions.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, again, I wanted each of you to know how much I respect 
you, how grateful I am for your service to our Nation. And I am 
grateful that you are here today.
    It is a nice, pretty slick brochure, but at the end of the 
day it really didn't do very much for our country.
    A couple things I wish I had heard in this brochure--and it 
starts first with the Navy and the Marine Corps. In my time in 
Congress, I have seen a tendency by the Navy to give second-
class treatment to Marine Corps requests. And that starts with 
the big-deck amphibs. It is like, ``Well, the Marines will get 
that on their own. We won't make it a priority in our 
requests.''
    And, Admiral, I know you are new on the job. I know the 
Commandant is new on the job. I know this Commandant is fairly 
new on the job. I would hope, in addition to slick brochures, 
that in the future we see the Navy giving a higher preference 
to amphibs. I was deeply disappointed to see the second amphib 
that this committee put into the bill, that the House 
appropriators funded, did not get similar treatment from the 
Senate. And I think, quite frankly, if the Navy had weighed in 
and said, yeah, we need it, the fleet is at an all-time low 
post-World War I, and it is in the budget, doggone it, we hope 
you guys will keep it in there.
    Second thing that I would ask of you--and, again, both of 
you are fairly new in this job, but I would hope that, between 
the Commandant of the Coast Guard and the CNO, that you will 
set the standard for, in the future, greater use of common 
hulls. Each of you come to me individually and say we are not 
buying enough to get any sort of economy of scale. That is why 
they are so darn expensive; that is why we need so much money. 
But I have never, in 18 years, seen the Coast Guard and the 
Navy really sit down and say, what hulls can we use?
    Historically, the Coast Guard has used a heck of a lot of 
Navy surplus hulls. They worked very well. The ship that saved 
the air crew in the movie ``The Perfect Storm,'' which was a 
true story, was a Navy hull that had been given to the Coast 
Guard that the Coast Guard used for a good 40 years after World 
War II, did a great job.
    So it can be done. And I would hope that you two set the 
precedent for, in the future, greater use of common hulls so 
that we can get some economies of scale in our purchases.
    And the third thing--again, Commandant Allen, I do 
appreciate the visit to the Baltimore yard last week. And I was 
very impressed with the captain who walked us around. I was 
very impressed with the gentleman, I guess from either Pakistan 
or India originally, who is your expertise on the civilian 
side.
    But I remember asking them, why wasn't a hogging and 
sagging calculation run on this boat? And they said, in effect, 
``Well, we were counting on Bollinger to do it, and Bollinger 
screwed up.'' I said, ``Well, who is your equivalent of Naval 
Sea Systems Command (NAVSEA)''--Navy Shipbuilding Command. And 
they said, ``We are.'' Two guys.
    And so, I am not going to blame two guys for this fiasco. 
Bollinger should have done it right the first time. But what 
does trouble me, having been lucky enough to visit the David 
Taylor Research Center, having been lucky enough to get to work 
extensively with NAVSEA over the years is, why wasn't there a 
greater use of that resource?
    Okay. And that is water under the bridge. But what kind of 
guarantees are we going to get in the future that there will be 
greater cooperation? Because, quite frankly, I understand that 
a major acquisition of Coast Guard large hulls is a 
generational thing. But the Navy is doing it every year. There 
is absolutely no reason for the Coast Guard, every generation, 
to recreate a ship-buying apparatus when the Navy has got one. 
And the vast majority of what you all do is common. I realize 
there are some things that are unique to the Coast Guard, some 
things unique to the Navy.
    And that really is going to start with you two gentlemen, 
that this is a cultural thing, that we have to get better as a 
Nation. Because we have seen the LCS mistakes, we have seen the 
110 mistakes. And, quite frankly, we can't afford as a Nation 
to keep repeating these mistakes.
    So what, if anything, is going to happen toward any of 
those requests?
    Admiral Allen. Well, first of all, we are already moving on 
several of those fronts, sir. And, again, I thank you for your 
interest.
    First of all, the solicitation for the new patrol boat that 
will succeed the 110-foot fleet is going to be American Bureau 
of Shipping (ABS) class. We have Naval Sea Systems Command 
involved whenever they are needed.
    The current project office down in Pascagoula for the 
National Security Cutter is jointly staffed with both 
Supervisor of Shipbuildings (SUPSHIP) for Navy personnel and 
Coast Guard personnel. And the acceptance trials for the 
National Security Cutter will be done by a U.S. Navy Inspection 
and Survey (INSURV) board for the first time in the history of 
the service, sir.
    Admiral Roughead. And, Mr. Taylor, if I could just add on 
to the approach that we are taking, Admiral Allen referred to 
our warfighter talks. I think that the fact that our two 
services have joined over the past year to look at the future 
and see what capabilities we believe we, as a maritime nation, 
can have or need to have, and doing it jointly, leads us into 
the room to have the types of discussions and make the 
decisions that get exactly to your point.
    So even though the strategy may be an overarching document, 
I believe it has set in motion a level of cooperation and 
sharing of information systems and commonalities that are going 
to be very important to us and, at the end of the day, also be 
very economical for both of our services.
    Mr. Taylor. How about our request that the Navy give a 
greater degree of importance to the need to replenish the 
Marine Corps's amphibious fleet?
    Admiral Roughead. And as General Conway has mentioned, we 
have already met, in the brief time that I have been the CNO, 
to talk about and work through our future amphibious lift 
requirement, acknowledging the requirement that has been 
generated by the Marine Corps, and moving forward to create the 
type of capability that we need to have a viable, modern 
amphibious force to support the Marine Corps.
    So we are already going down that path, as well.
    Mr. Taylor. Again, I thank you for your service to the 
Nation.
    Admiral Roughead. Thank you, sir.
    Mr. Taylor. Thank you for being here.
    The Chairman. Mr. Bartlett has a question.
    Mr. Bartlett. Thank you very much.
    I would like to return for just a moment to Mr. Hunter's 
line of questioning. A bit less than a year ago now, Mr. Larsen 
and I and seven other Members of Congress spent several days in 
China. We spent New Year's Eve in Shanghai. And we went there 
principally to talk about energy. The Chinese began their 
discussion of energy by talking about post-oil. We have trouble 
in our country thinking beyond the next quarterly report and 
beyond the next election. They seem to be able to think in 
terms of generations and centuries. And there will, of course, 
be a post-oil world.
    They have a five-point plan, which everybody in their 
Government seemed to know. The first point of that five-point 
plan is conservation. They understood that there is now no 
surplus oil. To invest in the development of alternative energy 
sources, we need to buy some time and free up some oil with an 
aggressive conservation program.
    Second and third points were get energy from other sources, 
and as much of that as you can from your own country.
    And the fourth one may surprise you: Be kind to the 
environment. They have 1.3 billion people, 900 million of which 
are in rural areas, clamoring for the benefits of an 
industrialized society. And I think they see the potential of 
their empire unraveling, like the Yugoslav and Soviet empires 
unraveled, if they can't meet these demands.
    As Mr. Hunter noted, this year they will turn out, I think, 
six times as many engineers as we. They will graduate more 
English-speaking engineers than we graduate. And half of our 
English-speaking engineers are Chinese students. They have an 
enormous potential. They now are buying up oil all over the 
world and building a blue-water navy.
    I am really quite surprised that in your document looking 
forward that you didn't mention energy. I think it is going to 
be the overarching issue, not just for our country but for the 
world, in the next decade. And I think that many of the 
challenges that you face in the future are going to be a result 
of the competition for decreasing amounts of fossil fuels.
    Our obsession with corn ethanol has driven up the price of 
grain, so that there are children now hungry in India because 
we are making corn ethanol for our cars. And one of the people 
from The World said that this was a--what was the term he 
used?--a crime against humanity.
    If we use all of our corn for corn ethanol--these are 
numbers from the National Academy of Sciences--if we use all of 
our corn for corn ethanol, every bit of it, all 70 million 
acres, and discounted it for fossil fuel input, we would 
displace 2.4 percent of our gasoline. That is absolutely 
trifling.
    And by the way, they said also that all of our soybeans 
converted into diesel would displace 2.9 percent of our diesel.
    Don't you think, gentlemen, that our maritime posture for 
the future needs to consider energy in a very large way? And I 
am really quite surprised that it wasn't even mentioned. You 
mentioned a competition for resources, energy which would be 
one of those. But you really don't mention energy as a 
challenge for our planning for the future. Shouldn't you have?
    Admiral Roughead. Well, Mr. Bartlett, by addressing the 
competition for resources, we are addressing the challenges, 
the potential strife and even conflict that can come from that 
competition for resources. That is the intent of addressing it 
in the strategy, because we believe it will drive where we will 
have to operate, the types of operations that we will be 
involved in, and ultimately will drive the type of fleet that 
we must have to operate, live and shape that future world.
    So the strategy does address competition for resources. But 
it is as we go forward in our operating concepts and in where 
we are going to be accepting risk and then building our 
programs from that, that is where that will play out in the 
future years.
    Mr. Bartlett. But you did single out global warming. That 
is a challenge. I think it is a fairly trifling one for the 
next couple of decades compared to our competition for energy.
    Why do you think the Chinese are so aggressively pursuing a 
blue-water navy? They don't need one for Taiwan, do they? Won't 
a brown-water navy do just fine there?
    Admiral Roughead. I believe that what the Chinese Navy, the 
PLA Navy is doing is developing a blue-water navy that allows 
them to influence and control events in the Western Pacific, 
around some of the critical straits and into the Indian Ocean. 
That is the navy they are building. They are very unabashed 
about the fact they are building a blue-water navy that will 
operate out to the first island chain, as they refer.
    And as we have seen throughout history, and as we have seen 
in own country over the course of our Nation's history, that we 
are a maritime nation and our Navy and Marine Corps and Coast 
Guard are the maritime forces that can influence events in that 
maritime domain. They also see, as do other countries, the 
importance of navies to assure their security and their 
prosperity. And that is what is going on.
    And we, as a Navy, Marine Corps, and Coast Guard, must also 
value our navy and what it takes to be a global navy, to be 
able to influence events in ways that are advantageous to our 
country.
    Mr. Bartlett. I thank you, Mr. Chairman.
    The Chairman. Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    We know the Marines are an expeditionary force. And I 
wonder if you could speak to the issue of whether, or to what 
extent, we have had to sacrifice some of that role.
    In your maritime strategic concept, you say, ``Permanent or 
prolonged basing of our military forces overseas often has 
unintended economic, social or political repercussions.''
    Could you speak to some of those? What is that? How far 
down that road, I guess, do you think that some of that role 
has been sacrificed?
    General Conway. Some of it, ma'am, but I think knowingly. 
The Nation is engaged in two major fights. And as long as that 
is the case, the Marine Corps has to live up to its claim of 
being adaptable and flexible to the Nation's needs. And we 
consider that we have done that.
    When the time comes to disengage from that kind of 
activity--and, really, our role in Iraq, in particular, has 
been that of a second land Army. When it comes time to be able 
to disengage from that service to the Nation and retain our 
original expeditionary flavor and our naval roots, I think we 
need to be looking at doing that. And that is what the strategy 
now seems to me to offer. And it is, I think, a blueprint for 
us to be able to do that in a little bit of a new and different 
fashion.
    The things, the mine resistant ambush protected vehicles 
(MRAP) comes immediately to mind, those things that would make 
us heavier, that would make us not nearly so expeditionary, the 
fact that our battalion tables of equipment are vastly 
different today from what they were in 2003--we have people 
working on all those things. And so we want to be able to do 
both, provide a service to the Nation that it desperately needs 
to help the Army with the commitments, but at the same time, 
when the time is right, to retain our expeditionary flavor and 
be lighter and harder-hitting and more agile.
    Mrs. Davis of California. Is there a part of that, though, 
that worries you the most?
    General Conway. Probably the human dimension. Because, 
again, we now have a generation of young Marines who think that 
being expeditionary is three squares a day at the forward-
operating base and a bed at night. And we need to get away from 
that some and have the Navy deliver us to a moonscape somewhere 
where we have to start fending for ourselves and making 
something out of nothing. That is expeditionary.
    So I think as long as we have great young leaders who can 
manage that mindset, we will be okay. But we need to, again, 
remember what it was like before 2004, when we probably first 
started experiencing those things.
    Admiral Roughead. If I could just add on that, 
acknowledging what General Conway has just talked about, my 
Third Fleet commander and his general out in California have, 
given those circumstances, have come into agreement on being 
able to do more with what we currently have available and what 
the Marines can afford to contribute, so that we keep that tie 
that is traditional and that really gives the Navy and Marine 
Corps its power.
    The systems are important, the ships are important, but it 
is when our sailors and our Marines come together, that is the 
power of the Navy-Marine Corps team.
    Mrs. Davis of California. And I think we would certainly 
all agree that they have performed magnificently. I think the 
concern is, you know, what are the problems that you see down 
the line with that, if any?
    And I know, General, you mentioned also the fact that our 
families are brittle. That element is an important one to keep 
focus on, and I appreciate the fact that you are dedicating 
your resources to that.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady from California.
    As I understand, we are going to have three votes 
momentarily. Mr. Larsen and then Mr. Sestak, as I understand, 
have additional questions.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Gentlemen, we are going to play a lightning fill-in-the-
blank here, given the shortness of time.
    Perhaps for Admiral Roughead and maybe for Commandant 
Allen: Does the Law of the Sea Treaty, does approval and 
ratification of that help, hurt, is it neutral on what you want 
to accomplish with the cooperative strategy, especially as it 
relates to other nations?
    Admiral Roughead. I believe especially the Law of the Sea 
Treaty is a very positive thing for our Navy and for our 
country.
    What I saw in the Pacific was that the fact that we had not 
acceded to the treaty kept countries from doing things with us 
that would have enhanced the maritime security and the 
interoperability that are so important across a range of 
operations.
    Admiral Allen. I couldn't agree more. In fact, sometimes I 
think we are inhibited because, two things: Number one, we are 
dealing with countries that understand we haven't acceded to 
the treaty; and number two, we are not in a position to rebuke 
claims that are not consistent with the Law of the Sea Treaty 
because we have not ratified it.
    I will tell you, just in relation to Arctic issues, moving 
north, issues relating to the continental shelf, the potential 
for 25 percent of the world's oil and gas resources may be 
unexploited in that part of the world, not having a seat at the 
table when the claims are made on the continental shelf by 
Russia I think robs us of a chance to act where we need to 
under the strategy and also is going to inhibit our ability to 
make claims on our own continental shelf.
    Mr. Larsen. It is ironic that lack of ratification may be 
impacting our ability to exercise our sovereignty.
    Second, Admiral Roughead, in your testimony, you talked 
about vessel tracking system. Perhaps for, again, both Admiral 
Roughead and Commandant Allen, can you talk about sort of a 
Navy role and Coast Guard role and where that line is in the 
vessel tracking service (VTS)? Is there a line, or how does it 
overlap?
    Admiral Roughead. My view is that we no longer live in a 
world of lines.
    Mr. Larsen. Yeah.
    Admiral Roughead. And the ability to be able to merge the 
information we have with the information the Coast Guard has 
with information other agencies have and other countries may 
have, that is where we have to go.
    Admiral Allen. Yeah. Maritime domain awareness has two 
major components. One is what we will call global maritime 
situational awareness, be able to sense and understand what is 
going on there. And then the information associated with it, 
which we would call global maritime intelligence integration.
    Both of those functions have a place. Global maritime 
intelligence integration is part of the Director of National 
Intelligence (DNI) organizational structure. And that community 
of interest is currently being headed by a Coast Guard flag 
officer. Global maritime situational awareness is a program 
office at Coast Guard headquarters within Department of 
Homeland Security (DHS), but is headed by a Navy admiral. There 
are no lines.
    Mr. Larsen. So, as that applies back home in the Strait of 
Juan de Fuca and the Strait of Georgia, and between Washington 
State and British Columbia, with the vehicle tracking system, 
there is really no--not only are your systems interoperable, 
but your people are interoperable.
    Admiral Roughead. Exactly.
    Do you want to add to that?
    Admiral Allen. That is correct. In fact, we just opened a 
Joint Harbor Operations Center in Seattle on Pier 36 that has 
representation from the Navy and our force protection role 
related to the movement of their vessels in and out of Puget 
Sound.
    And I might add we have international cooperation with the 
Canadian Vessel Traffic Services in Tofino that actually 
exchange information with our Vessel Traffic Services in Puget 
Sound.
    Mr. Larsen. Yeah.
    Back to China, if I could just weigh in a little bit on 
that, Admiral Roughead, you discussed a little bit in response 
to some questions. I was going to ask, you know, what is your 
judgment of the Chinese military modernization? Do you have a 
judgment that is good, bad, indifferent, or how do you----
    Admiral Roughead. My judgment is that it is a navy that is 
modernizing at a rate that is exceeding what our expectations 
have been. There are resources that are flowing into it. It is 
a navy that is becoming more capable, more modern, has legs 
that can get it into the blue water.
    And the most significant change that I have seen in my 
observation of it over the last 13 years is in the human 
dimension. We can all watch the systems they are buying, 
capabilities they are buying----
    Mr. Larsen. Right.
    Admiral Roughead [continuing]. But what I have seen is the 
nature of the leadership. These are now officers in their navy 
who have grown up in their areas of specialty, whether it is 
submarining or a surface ship or an aviator, and bring that 
perspective and that ambition to their leadership positions. 
And I think that is one of the major drivers in shaping their 
navy of the future.
    Mr. Larsen. Does that relate--are you saying that, although 
they are all PLA, they are becoming more professionalized as a 
military, as opposed to strictly an arm of the party?
    Admiral Roughead. Or those who had risen out of the Army, 
and they are now--these are now very professional naval 
officers. Their desire to constitute a noncommissioned officer 
corps is also indicative of the value that they place on the 
human resource.
    Mr. Larsen. Yeah. I will just make one final note. And not 
to differ too much with my friend and colleague from San Diego, 
California, who is not here now, but I would prefer if the Navy 
stuck to the Navy and let the U.S. Trade Representative's 
Office stick to trade issues.
    Admiral Roughead. Thank you, sir.
    The Chairman. Mr. Sestak.
    Mr. Sestak. Thank you, sir.
    I just had two questions. They both have to do with some 
questions asked by the Congressman in the back row on cost and 
numbers of platforms.
    I mean, you have all had your challenges from Deepwater to 
LCS to EFE. I was struck that joint strike fighter (JSF), 
however, seemed to consciously go out at the beginning of it, 
get about eight nations to be in on the development of it, and 
therefore more people are buying, nations are buying this 
platform, so the cost goes down. Why haven't we done the same 
thing with particularly the LCS?
    For the first time, the U.S. Navy is going after a small 
ship, which seems so apropos for some other countries. The CNO 
of Israel was up to Wisconsin just the other day, I understand, 
to look at it, but can't get in on the development of it. And 
it is kind of a hull that you just got to change out capability 
to some degree with modular.
    If we are concerned about costs, shouldn't we make this the 
JSF of the Navy?
    Admiral Roughead. Mr. Sestak, I am aware of countries that 
have shown an interest in LCS, but if I had to characterize 
most of them, they are watching us to see will it take flight 
or not.
    Mr. Sestak. All right. I had dinner with the Ambassador, 
and the CNO also stopped by. He said he is ready to sign the 
line--I understand it is probably different--sign the line if 
he could just be asked to do so. I pass it on. It just sounds 
like a great concept. And he seemed, the CNO, yesterday or the 
other day, to be very, very interested and said I would sign. 
But cost is something.
    Could I follow up--and the last question is, again, I think 
Mr. Hunter, besides the trade issue, where else he was trying 
to go, and that is the number of platforms. I asked that 
earlier question on the LCS. And, you know, the concept had 
been that it would take this advanced deployable system. And I 
was struck by what you said, Admiral, it is just not platforms; 
it is systems. And we are supposed to take this underwater 
listening system, place it there, and move away, and then 
submarines from China might go over it, and you know where they 
are because it has a little antenna that sends the signal.
    But, as you said in your response, well, you know, you kind 
of have some--you have to review things, and some things--you 
didn't say these exact words, but some things just don't make 
it, you know, because you only have so much resources.
    I guess my overarching question would be, do we have the 
wrong metric of greatness in our Navy, really in our Army, in 
our Marines, Coast Guard or whatever, when we say we have the--
that in this new transformational era that greatness is 
measured by the number, 313. Time and again, you hear about 
capabilities-based units.
    And so my question really comes that, as we have gone from 
a Navy of 600 ships 20 to 25 years ago down to 300 or 280 
today, no admiral would change today's Navy for one of 25 years 
ago, even though it had twice the number of platforms.
    Is what is happening with our phobic--and I mean that in a 
positive way--on number, that what really gets pushed off in 
the resource fight is the capability like ADS? I mean, now we 
have an LCS platform that will go out there with no ASW 
capability, or very minimal. So we have another platform, just 
can't do the mission.
    So do we have the wrong metric if we are still sticking 
with number as the sign of our greatness?
    Admiral Roughead. I would say that we cannot totally 
discount numbers, because, as you know, numbers have value, 
just in the variety of places around the globe where we can be 
doing things.
    But I would say that our approach and how we assess our 
capabilities, that there is a bias that pulls us to platform. 
And we have to get away from that. We have to look at what it 
is that we are trying to do, what is the effect that we are 
trying to generate, and then what comes together in totality to 
be able to deliver that effect.
    But we do tend to pull toward platforms, and we have to 
stop.
    Mr. Sestak. I say that only--I mean, with great respect. We 
have gone from Desert Storm, where lots of our Naval aircraft 
couldn't even--they just dropped gravity bombs, to today 
everyone has a precision-guided munition, to where everybody 
shares the common operating picture.
    So it just seems as though sometimes, because of 
understandable interest everywhere, that--are we building the 
right capability for the future if we focus almost exclusively 
on numbers?
    I am out of time. Thank you.
    The Chairman. You will note the votes have come, and we 
will close our hearing.
    I want to express my gratitude to each of you this morning 
for your testimony and for your outstanding service and what 
you have and what you are devoting to the Nation.
    I will have to tell you sailors that, as being one 
interested in history, I am so pleased to see you celebrating 
the 100th anniversary of the Great White Fleet. We can all 
learn so much from history. And that was a milestone for you, 
the Navy; it was a milestone for our country.
    And with this strategy that you have testified about today 
and the fact that you are together today, the Marines and the 
Coast Guard, and the fact that you are helping implement this 
strategy could very well be an historic moment in our country, 
not just for you but for our country. And, of course, we in 
Congress hope and expect to play an important constitutional 
part in that.
    So we thank you for your excellent testimony, your advice, 
and especially for your service. And, with that, we will thank 
you and see you again soon. Thank you.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           December 13, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 13, 2007

=======================================================================

      
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           December 13, 2007

=======================================================================

      
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 13, 2007

=======================================================================

      
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. In what ways do you imagine NetCentric warfare 
playing a role both in the future of Naval warfare and also in 
coordinating missions and operations across the Navy, Marine Corps and 
Coast Guard?
    Admiral Roughead. The Department of the Navy (DON) Information 
Management & Information Technology (IM/IT) Strategic Plan for Fiscal 
Years 2008-2009, is our roadmap to achieve Net-Centric Warfare (NCW) 
and Joint transformation by providing robust information sharing and 
collaboration capabilities across the Naval/Joint force. The objective 
of our Net-Centric Warfare programs is to enable us to integrate 
sensors, command/control systems, platforms, and weapons into a 
networked, distributed, and sustainable combat force. That will provide 
a seamless, interoperable environment to enhance the sharing of time-
critical information. Fulfilling these objectives will enable our 
forces; Navy, Marine Corps and Coast Guard to make better decisions and 
employ systems faster. Decision superiority is imperative to realizing 
the capabilities called out in our Cooperative Strategy for 21st 
Century Seapower.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. How does the threat to our ships posed by the rapidly 
expanding Chinese diesel submarines and new nuclear submarines affect 
the Maritime Strategy? It seems logical that the most direct threat to 
a sea-base is the threat posed by hostile submarines, what are you 
doing to expand anti-submarine warfare capability?
    Admiral Roughead. Advanced diesel submarines are proliferating 
globally, not only in China. Sea control and power projection are two 
of the six capabilities specified in our Maritime Strategy. Advanced 
diesel and nuclear submarines challenge those capabilities regardless 
of who possesses them.
    China's increasingly modern submarine force is optimized for anti-
surface warfare, blockade operations, mining, and reconnaissance. The 
Maritime Strategy addresses these challenges posed by advanced diesel-
electric and nuclear submarines. To ensure the core competency of sea 
control, our Navy continues to develop improved platform and 
distributed sensor systems that provide capability against future 
advanced anti-access threats. Improvements in anti-submarine warfare 
(ASW) readiness, based on improvements in tactics, training and 
technologies, provide a defense in depth that mitigates the threat 
posed by advanced submarines.
    Research & Development in distributed and networked sensors such as 
Reliable Acoustic Path-Vertical Line Array (RAP-VLA) and Deep Water 
Active Distributed System (DWADS) will improve wide area search. 
Developments in platform sensors such as surface ship sonar (SQQ-
89A(V)15) and P-3/P-8 deployed Advanced Extended Echo Ranging improve 
our ability to hold threat submarines at risk and defend the sea base. 
Open architecture will provide improved capabilities for submarines, 
surface ships, aircraft, and distributed systems.
    We are pursuing key technologies such as Surface Ship Torpedo 
Defense (SSTD) and Aircraft Carrier Periscope Detection Radar (CVN PDR) 
to defend our forces against increasingly capable threats.
    Investment continues in the High Altitude ASW Weapon Concept 
(HAAWC) and improvements in heavy and lightweight torpedoes to increase 
weapons effectiveness.
    We continue to respond responsibly to challenges which restrict our 
ability to train our ASW forces in a realistic manner.
    Mr. Forbes. China recently denied the USS Kitty Hawk porting in 
Hong Kong over the Thanksgiving Holiday. Does that action figure into 
future planning as to which locations our ship captains can have 
confidence they will be welcomed at? What other possible locations in 
that area could a ship the size of an aircraft carrier dock, if not in 
Hong Kong?
    Admiral Roughead. The port visit planning process takes into 
consideration many factors. The People's Republic of China's (PRC) 
initial refusal, but subsequent granting, of permission for the KITTY 
HAWK Carrier Strike Group to enter the Port of Hong Kong will be 
included in that calculus. The United States Navy will continue to 
request Hong Kong and mainland PRC port visits in support of PACOM's 
Theater Security Cooperation efforts. In fact, USS BLUE RIDGE completed 
a four-day port visit in Hong Kong this month. I anticipate Hong Kong 
port visits will continue at the rate of approximately 35 ship visits 
per year, which is consistent with the number of visits over the last 
several years.
    Locations in Southeast Asia that have hosted carrier port visits 
include:

    <bullet> Hong Kong (anchorage only)

    <bullet> Changi, Singapore (pierside berth available)

    <bullet> Pattaya Beach, Thailand (anchorage only)

    <bullet> Phuket, Thailand (anchorage only)

    <bullet> Port Kelang, Malaysia (anchorage only)

    Another candidate location is:

    <bullet> Kota Kinabalu, Malaysia (anchorage only)
    Mr. Forbes. Do you need top line relief for your acquisition 
programs? If so, how much do you need? In other words, Admiral 
Roughead, you've mentioned 313 as the absolute floor for the number of 
ships--what is a ``mid-level'' number of ships, and what would be the 
ceiling figure? How do the cost overruns of LCS create challenges to 
achieving the 313 ship Navy?
    Admiral Roughead. The Navy continues to analyze operational 
requirements, ship designs and costs, acquisition plans and tools, and 
industrial base capacity to further improve our shipbuilding plans. 
This analysis will underpin any potential budgetary strategies. The 
near-term shipbuilding plans have remained relatively stable. A larger 
force may reduce risks inherent in the 313 ship minimum force structure 
outlined in The Report to Congress on Annual Long-Range Plan for 
Construction of Naval Vessels for FY 2009. However, this plan 
represents an acceptable balance between capability, affordability, and 
the need to sustain the industrial base. Full funding is supported in 
the FY2009 President's Budget and in the Future Years Defense Plan 
through 2013.
    Full funding and support of this plan is crucial if the Navy is to 
maintain the minimum essential battleforce necessary to meet the 
maritime needs of the nation.
    The 55 Littoral Combat Ships (LCS) remain an integral part of 
current planned force. The Littoral Combat Ship procurement profile was 
adjusted based on a program assessment following significant LCS-1 and 
LCS-2 cost increases. Although this assessment resulted in the removal 
of 13 ships from the FY 2008 President's Budget FYDP, the plan 
continues procurement to reach the objective of 55 ships by FY 2023. I 
am committed to continue working with the Congress on this important 
program which is needed to fill existing warfighting capability gaps.
    Mr. Forbes. Will the new maritime strategy change the Navy's 
current requirements for 48 Fast Attack submarines? How will you 
fulfill submarine requirements in the years when there will be fewer 
than 48 ships?
    Admiral Roughead. The new Maritime Strategy will not change the 
Navy's current requirement for 48 fast attack submarines (SSNs). The 
Maritime Strategy emphasizes prevention of war, containment of 
conflict, and security of the seas, and submarines will be integral to 
the Navy's core capabilities of forward presence, deterrence, sea 
control, power projection, and maritime security.
    The requirement for 48 fast attack submarines is indexed to the 
Department of Defense threat assessments for 2020, which include 
anticipated force levels of potential threats. The shipbuilding plan 
detailed in Navy's Report to Congress on Annual Long-Range Plan for 
Construction of Naval Vessels for FY 2009 is the best balance of 
anticipated resources to force structure requirements. The Navy is 
pursuing a 3-part risk mitigation strategy consisting of:

        -  a reduction in the construction time of VIRGINIA-class 
        submarines from 72 to 60 months,

        -  a service life extension for 16 SSNs, ranging from 3 to 24 
        months in length, and

        -  an extension in the length of selected SSN deployments from 
        six to seven months.

    This strategy will reduce the impact of the projected dip in 
submarine force structure in the 2020-2033 timeframe and provide for 
all current and projected Combatant Commander critical forward presence 
requirements.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DRAKE
    Mrs. Drake. Admiral Roughead, in January of 2006, the Navy stood up 
Navy Expeditionary Combat Command with the understanding that the new 
post-9/11 reality that faces our military necessitates a Navy that can 
extend its missions of force projection and maintaining the safety and 
security of the sea lanes beyond the littorals and into the many inland 
waterways that terrorists use to evade U.S. forces. Admiral, are you 
committed to the brown-water mission of the U.S. Navy?
    Admiral Roughead. Yes. Beginning in 2006 the Navy began to re-
constitute a ``brown water'' capability--a capability in the Navy that 
had, outside the Naval Special Warfare community, been dormant since 
the early 1970's. Three Riverine Squadrons have been established under 
the Navy Expeditionary Combat Command with the responsibility to 
conduct and support offensive and defensive operations on inland 
waterways They have been organized, trained, and equipped. Two of the 
three Riverine Squadrons have deployed in support of Operation Iraqi 
Freedom (OIF); the third Squadron is scheduled to deploy in the spring 
of 2008. In addition to responsibilities in support of OIF, elements of 
each Riverine Squadron can support future Geographic Combatant 
Commander objectives in ``brown water'' environments, to include 
training host nations who request our assistance with inland waterway 
security. The reconstitution of our Riverine capability, in a short 
period of time, is a success.

                                  <all>

</pre></body></html>
